No. ____________
In The
Supreme Court of the United States
________________________________________________

DAVID R. MORABITO and COLETTE M.G. MORABITO
Petitioners
versus
THE STATE OF NEW YORK, THE STATE OF NEW
YORK DEPARTMENT OF ENVIRONMENTAL
CONSERVATION, and BASIL SEGGOS, (ACTING)
COMMISSIONER, NEW YORK STATE DEPARTMENT OF
ENVIRONMENTAL CONSERVATION
Respondents
____________________________________________
On Petition for Writ of Certiorari to the United States Court of
Appeals for the Second Circuit
____________________________________________
PETITION FOR WRIT OF CERTIORARI
_________________________________________________

David R. Morabito and
Colette M. G. Morabito
117 West Commercial Street
PO Box 187
East Rochester, NY 14445
585-586-5770
PRO-SE
_______________________________________________________________

QUESTIONS PRESENTED
1.

Whether the New York State Law, adopted on or about April 3, 2020, permanently
banning high volume hydraulic fracturing in the State of New York is an
unconstitutional Taking of the United States Constitution under the Fifth and
Fourteenth Amendments.

2.

Alternatively, whether the New York State Law, adopted on or about April 3, 2020,
permanently banning high volume hydraulic fracturing in the State of New York is
a violation of Due Process of the United States Constitution under the Fourth and
Fourteenth Amendment.

3.

Alternatively, whether the United States Court of Appeals-Second Circuit
improperly applied or ignored the dictates and reasoning of the Court in
Rosemary Knick, Petitioner v. Township of Scott, Pennsylvania, et al., 588 U.S. ____
(2019), Docket No. 17-647, held on June 21, 2019.

4.

Alternatively, whether the New York State Law, adopted on or about April 3, 2020,
permanently banning high volume hydraulic fracturing in the State of New York is
a violation of interstate commerce.

5.

Alternatively, whether the decision by the United States Court of Appeals-Second
Circuit was a denial of the fundamental rights of justice in that Petitioners were not
allowed to: amend their Complaint pursuant to Fed.R.Civ.P. Rule 15; the
Fed.R.Civ.P. 12(b)(6) Motion should have been denied; that pursuant to the
proposed simple amendments, the suit should not have been barred under the
Eleventh Amendment of the United States Constitution; and that Petitioners had
standing to sue Respondents.

i

LIST OF ALL PARTIES
The parties to the judgment from which review is sought is Petitioners
David R. Morabito and Colette M. G. Morabito. They were a party in all
proceedings below.
Respondents are the State of New York, the State of New York
Department of Environmental Conservation, and Basil Seggos, Acting
Commissioner, New York State Department of Environmental Conservation.
PARTIES TO PRIOR PROCEEDINGS
DAVID R. MORABITO and COLETTE M.G. MORABITO, Plaintiffs vs THE STATE OF NEW
YORK, THE STATE OF NEW YORK DEPARTMENT OF ENVIRONMENTAL CONSERVATION,
and BASIL SEGGOS, (ACTING) COMMISSIONER, NEW YORK STATE DEPARTMENT OF
ENVIRONMENTAL CONSERVATION, Defendants
No. 17-CV-6853
United States District Court-Western District of New York
Decision and Orders Entered on June 18, 2018 and August 7,2018
DAVID R. MORABITO and COLETTE M.G. MORABITO, Plaintiffs vs THE STATE OF NEW
YORK, THE STATE OF NEW YORK DEPARTMENT OF ENVIRONMENTAL CONSERVATION,
and BASIL SEGGOS, (ACTING) COMMISSIONER, NEW YORK STATE DEPARTMENT OF
ENVIRONMENTAL CONSERVATION, Defendants
No. 18-2499
United States Court of Appeals-Second Circuit
Amended Summary Order Entered on February 27, 2020

ii

TABLE OF CONTENTS
Page No.

QUESTIONS PRESENTED…………………………………………………… …..i

LIST OF ALL PARTIES ...................................................................................... ii
TABLE OF AUTHORITIES..........................................................................…..iv
PETITION FOR WRIT OF CERTIORARI .......................................................... ix
OPINIONS BELOW…………………………………………………………….. ix
JURISDICTION…………………………………………………………………...ix
CONSTITUTIONAL AND STATUTORY PROVISIONS AT ISSUE……………….ix
INTRODUCTION……………………………………………………………….…x
STATEMENT OF THE CASE
A. Factual Background………………………………………………1
1. Preliminary Statement
2. Respondents Studies
3. High Volume Hydraulic Fracturing (HVHF)
B. State Court Procedure. ..................................................... 10
C. District Court Procedure…………………………………………12
D. The Second Circuit Decision. ........................................... 13
REASONS FOR GRANTING THE PETITION………………………………….14
I

THOUGH THE DECISION BELOW ADDRESSED A REGULATORY
BAN ON HIGH VOLUME HYDRAULIC FRACTURING IN THE STATE
OF NEW YORK, THE IMPORTANT QUESTION RAISED AT THIS TIME IS
WHETHER THE NEW YORK STATE LAW, ADOPTED ON OR ABOUT
APRIL 3, 2020, PERMANENTLY BANNING HIGH VOLUME
HYDRAULIC FRACTURING IN THE STATE OF NEW YORK, IS AN
UNCONSTITUTIONAL TAKING IN VIOLATION OF THE UNITED
STATES CONSTITUTION UNDER THE FIFTH AND FOURTEENTH
AMENDMENTS………………………………………………………...14

iii

II

THOUGH THE DECISION BELOW ADDRESSED A
REGULATORY BAN ON HIGH VOLUME HYDRAULIC
FRACTURING IN THE STATE OF NEW YORK, THE
IMPORTANT QUESTION RAISED AT THIS TIME IS WHETHER
THE NEW YORK STATE LAW, ADOPTED ON OR ABOUT
APRIL 3, 2020, PERMANENTLY BANNING HIGH VOLUME
HYDRAULIC FRACTURING IN THE STATE OF NEW YORK IS
AN UNCONSTITUTIONAL VIOLATION OF DUE PROCESS OF
THE UNITED STATES CONSTITUTION UNDER THE
FOURTEENTH AMENDMENT
……………………………………………………….…………..20

III

THE DECISION BELOW RAISES THE IMPORTANT QUESTION
OF WHETHER THE UNITED STATES COURT OF APPEALSSECOND CIRCUIT IMPROPERLY APPLIED OR IGNORED
THE DICTATES AND REASONING OF THE COURT IN
ROSEMARY KNICK, PETITIONER V. TOWNSHIP OF SCOTT,
PENNSYVANIA, ET AL., 588 U.S. ____ (2019), DOCKET NO.
17-647, HELD ON
JUNE21,2019………………………………………………….23

IV

THOUGH THE DECISION BELOW ADDRESSED A
REGULATORY BAN ON HIGH VOLUME HYDRAULIC
FRACTURING IN THE STATE OF NEW YORK, THE
IMPORTANT QUESTION RAISED AT THIS TIME IS WHETHER
THE NEW YORK STATE LAW, ADOPTED ON OR ABOUT
APRIL 3, 2020, PERMANENTLY BANNING HIGH VOLUME
HYDRAULIC FRACTURING IN THE STATE OF NEW YORK, IS
A VIOLATION OF INTERSTATE
COMMERCE……………………………………………..….30

V

THE DECISION BELOW RAISES THE IMPORTANT QUESTION
OF WHETHER THE DECISION BY THE UNITED STATES COURT
OF APPEALS-SECOND CIRCUIT DENIED BASIC
FUNDAMENTAL RIGHTS OF JUSTICE IN THAT PETITIONERS
WERE NOT ALLOWED TO AMEND THEIR COMPLAINT
PURSUANT TO FED.R.CIV.P. RULE 15; THE FED.R.CIV.P.
12(b)(6) MOTION SHOULD HAVE BEEN DENIED; THAT
PURSUANT TO PROPOSED SIMPLE AMENDMENTS, THE SUIT
SHOULD NOT HAVE BEEN BARRED UNDER THE ELEVENTH
AMENDMENT OF THE UNITED STATES CONSTITUTION; AND
THAT PETITIONERS HAD STANDING TO SUE
RESPONDENTS………………........................................…32

CONCLUSION…………………………………………….……………..41
iv

APPENDIX
Decision and Order, U.S. District Court of the Western District of
New York, filed June 18, 2018 ..........................................................A-1
Decision and Order, U.S. District Court of the Western District of
New York, filed August 7, 2018.........................................................B-1
Amended Summary Order, U.S. Court of Appeals for the Second
Circuit, Filed February 27, 2020 ........................................................C-1

v

TABLE OF AUTHORITIES
CASE AUTHORITY

Page No.

Agins vs City of Tiburon, 447 US 25 (1980)........................................ …..17
Ashcroft vs Iqbal, 556 US 662 (2009)....................................................... 35
Bell Atl. Corp. vs Twombly, 550 US 544 (2007) ....................................... 34,35,39
Breithaupt vs Abram, 352 US 432 (1957).......................................... …..21
Collins vs City of Harber Heights, TEX 503 US 115 (1992) ......................21
Congregation Rabbinical College of Tarticov, Inc. vs Village of Pomona,
915 supp 2d 574 (SDNY 2013).................................................................. 39
Connelly vs Gibson, 355 US 41 (1957) .................................................... 35
Ex Parte Young, 209 US 123 (1908) ......................................................... 38
First English Evangelical Lutheran Church of Glendale vs
County of Los Angeles 482 US 304 (1987).................................. ……….17
Gramegna vs Johnson, 846 F 2d 675 (11th Cir. 1988) .......................... 34
In re Deposit Ins Agency, 482 F 3d 612 (2d Cir 2007) .......................... 38
Knick vs Township of Scott, Pennsylvania, 588 U.S. ___(2019)…23,25-29
Lingel vs Chevron, USA Inc, 544 US 528 (2005) ........................... 18,20,36
Lombardi vs Whitman, 485 US F 2d 73 (2d Cir. 2007)..................... ……22
Lucas vs S.C. Coastal Council, 505 US 1003 (1992) .................. …17,19,36
Lujan vs Defenders of Wildlife, 504 US 555 (1992) .............................. ..38
NLRB vs Jones and Laughlin Steel Corp., 301 US 1 (1937).................. .30
Or. Waste Sys. Inc. vs Dep’t of Envtl. Quality, 511 US 93 (1994) ......... 31
Patsy vs Board of Regents of State of Florida, 457 US 496 (1982) ...... 26
vi

Pennsylvania Coal vs Mahon, 260 US 393 (1922)................................. 17
San Diego Gas and Electric Company vs
City of San Diego, 450 US 621 (1981) ..................................................... 18
San Remo Hotel, L.P. vs
City and county of San Francisco, 545 U.S. 323 (2005) ..............………25,27,29

Scheuer vs Rhodes, 416 US 232 (1974)................................................... 34
Shipner vs Eastern Air Lines, Inc., 868 F 2nd 401 (11th Cir. 1989)........... 34
Swift & Company vs United States, 196 US 375 (1905) ........................ 31
United States vs Lopez, 514 US 549 (1995)............................................. 30
Williamson County Regional Planning Commission vs
Hamilton Bank of Johnson City, 473 US 172 (1985)………..4,11,13,24-30

vii

UNITED STATES CONSTITUTION
Commerce Clause, Article 1 ............................................................ 31
Fourth Amendment………………………………………………ix,20,24
Fifth Amendment…………………………..ix,16,17,19,23,24,26-28,36
Eleventh Amendment............................................................ ….37,38
Fourteenth Amendment……………………………..ix,16,19,20,24,36

UNITED STATES CODE
28 U.S.C. § 1331..................................……………………………………ix
28 U.S.C. § 1254(1) .............................……………………………………ix
42 U.S.C. §1983...................................………………ix,12,20,22,29,35,36

FEDERAL RULES OF CIVIL PROCEDURE
Rule 12(b)(6) ......................................................................................... 13,34
Rule 15 ............................................................................................ ..12,13,32
Rule 15(a)(2) ........................................................................................ …..33

2020 LAWS OF NEW YORK
Chapter 59, A-9508 ............................................................................ ….x,7

viii

PETITION FOR WRIT OF CERTIORARI
David R. Morabito and Colette M.G. Morabito respectfully request that this Court issue a
writ of certiorari to review the judgment of the United States Court of Appeals for the Second
Circuit.

OPINIONS BELOW
The opinion of the Second Circuit Court of Appeals is unpublished and is attached here
as Appendix C. The opinions of the District Court are unpublished and are attached here as
Appendix A and B.

JURISDICTION
This lower court had jurisdiction over this case under 28 U.S.C. §1331, 42 U.S.C.§1983, and
the Fourth, Fifth and Fourteenth Amendments of the United States Constitution. The Court of
Appeals for the Second Circuit entered final judgment on February 27, 2020. Appendix C. This
Court has jurisdiction under 28U.S.C. §1254(1).

CONSTITUTIONAL AND STATUTORY PROVISIONS AT ISSUE
The Fourth Amendment to the United States Constitution provides that a person may not
be deprived of property by the Government without “due process of law…” U.S. Constitution
Amendment IV.
The Fifth Amendment to the United States Constitution provides, “nor shall private
property be taken for public use, without just compensation.” U.S. Constitution Amendment V.
The Fourteenth Amendment provides that no state “shall deprive any person of life,
liberty or property, without due process of law.”
42 U.S.C. §1983 states “Every person who, under color of any statute, ordinance,
regulation, custom, or usage of any State… subjects, or causes to be subjected, any citizen of
the United States… to the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law, suit in equity, or
other proper proceeding for redress…”
ix

INTRODUCTION
This case raises important questions relating to the overreach by the State of New York,
originally as executive orders of Governor Patterson and Governor Cuomo in a
moratorium/temporary ban on high volume hydraulic fracturing. The moratorium eventually
became a permanent regulatory ban on said practice to extract natural gas in the State of
New York. The legal proceedings stated herein commenced in 2015 addressing the
constitutionality of the regulatory ban. Recently, on April 3, 2020, a legislative law was passed
and signed by the Governor of New York to permanently restrict the New York State
Department of Environmental Conservation from approving any permits to drill, deepen, plug
back or convert wells that use high volume hydraulic fracturing (2020 Laws of New York,
Chapter 59, A-9508).
Most respectfully, as will be set forth below, Petitioners have been denied justice in both
state and federal courts. The Petitioners have never been able to present any evidence to
support their case in any fact-finding hearings, pre-trial hearings, discovery, depositions, trial or
any other legal proceedings to address the viable legal issues raised herein.

x

STATEMENT OF THE CASE
A. FACTUAL BACKGROUND
1. Preliminary Statement

In 1997, Petitioners purchased approximately 400 acres in Western
New York that can support high volume hydrofracking (HVHF). The
majority of the property is located in the County of Allegany which is
found in the Southern Tier of the State of New York. This area is in the
southwestern region along the Pennsylvania border in the foothills of the
Allegany Appalachia mountain range. The properties are located in the
Towns of Belfast, Cuba and Wellsville. Petitioners’ properties are basically
forested land consisting generally of "Allegany hardwoods" with some
grasslands and agricultural land that is used for crop development or
grazing.
The property had a total of six (6) oil and gas leases from Shell Oil
Company, CNG Producing Company and a private wildcatter who
resided in Bradford, Pennsylvania. The Petitioners were able to vacate and
cancel all releases of oil, gas and mineral leases from the hereinstated
companies in 1997. Between 1997 through 2003, Petitioners purchased
additional acreage.
1

On the additional acreage, there were oil and gas leases from
approximately ten (10) gas companies. After years of legal negotiations,
all leases were eventually cancelled and vacated so that Petitioners
would own all mineral resources including natural gas. Between
February 25, 2013 through October 15, 2013, Petitioners personally had
communications with approximately fifty (50) oil and gas exploration
companies recommended by the Respondents that were interested
in conducting HVHF in the State of New York once the temporary ban was
lifted. In all communications with the exploration companies, Petitioners
were advised that when the temporary ban was lifted for gas exploration
and the acreage became "open" to Marcellus and Utica drilling activity,
Petitioners would be contacted.
Petitioners had further extensive discussions with Respondents, other
state and federal agencies and departments, attorneys, land lease
agents, foresters, representatives from oil and gas companies and even a
NYS Judge who had started his own exploration company. Specifically,
since 2010, Petitioners were advised by the Respondents and the abovestated entities that is was not possible to conduct HVHF during the ban
period. Petitioners were specifically advised by the Respondents that NO
ONE was allowed to apply for a permit and that a permit would not be
2

entertained by any individual or commercial entity during the ban.
However, Respondents and the above-stated entities all advised that the
"temporary ban" would be lifted during 2015 and commercial HVHF would
be a viable option to extract mineral resources in, at least, the Southern
Tier of New York.
The Respondents conducted very extensive and detailed studies for HVHF to
be allowed in the State of New York. During the past twenty-five (25)
years, the Respondents have thoroughly analyzed, critiqued and
deciphered extensive studies and conducted research involving HVHF.
The Respondents have established and/or promulgated extensive
proposed rules and regulations to preserve the needed conservation
practices of soil, water, and air quality in protecting the best interests of all
residents and citizens of the State of New York. The Respondents have
generated many thousands of pages in their Generic Environmental
Impact Statement (GEIS), Supplemental Generic Environmental Impact
Statement (SGEIS), draft Supplemental Generic Environmental Impact
Statement (dSGEIS) and the Revised draft Supplemental Generic
Environmental Impact Statement (Revised dSGEIS). These studies have
clearly set forth that HVHF is a viable and acceptable practice of
retrieving and extracting the enormous gas reserves in the State of New
3

York and, in particular, the County of Allegany. The scientific reports have
concluded that HVHF is a safe and useful means in the extraction of New
York State gas reserves.
During the "temporary ban" and being advised by Respondents
that the "temporary ban" was going to be lifted in 2015 pursuant to their
own studies, Petitioners purchased 339 acres on or about April 29, 2014 for
the specific purpose of HVHF. Prior to the closing date, Petitioners were
able to obtain a surrender/cancellation/release of numerous oil and gas
leases on the hereinstated property. In fact, one of the conditions of the
purchase of this property was the revocation of any outstanding oil and
gas leases.
Thereafter, on or about December 17, 2014 Petitioners were advised
that the ban on HVHF was going to be "permanent". On December 23,
2014 and January 28, 2015, Petitioners communicated with Respondents
asking if they, noncommercial private landowners, could obtain a permit
or commence the process to obtain a permit for HVHF. On January 29,
2015, Petitioners received communication from the Respondents that they
could not obtain a permit or attempt to obtain a permit. After the
permanent ban was announced in December of 2014, no individual or
entity came forward to commence legal proceedings to contest the ban.
Through encouragement from employees of the New York State
3-A

Department of Environmental Conservation (Respondents), landowners,
attorneys,

land

leasing

agents,

New

York

State

politicians

(Assembly/Senate), commercial entities in the oil and gas industry,
Petitioners commenced the legal proceedings. To date, this lawsuit is the
only legal proceeding pending in any State or Federal courts.
The permanent ban on HVHF, “unconventional fracking,” has been
a very serious economic hardship as Petitioners have not been able to
extract vast mineral resources of natural gas on their property(s) that all
have petroleum plays in the Utica and Marcellus shales. There is not only a
serious economic hardship, but, there will be a devastating environmental
impact and harm that will be caused if HVHF is permanently banned on
Petitioners' properties and only "conventional" fracking is the means to
extract the resources.
The denial for Petitioners to commence the process or receive a
permit to conduct HVHF, it was argued at the State level, was based on
arbitrary or capricious actions taken by the Respondents, as well as, a
violation of constitutional rights under the New York State and United
States Constitutions. After exhausting all State remedies, pursuant to the
United States Supreme Court case Williamson County Regional Planning
Commission vs Hamilton Bank of Johnson City, 473 US 172 (1985),
4

Petitioners commenced a civil action in the United States District Court
(WDNY). Petitioners argued that the decision of the Respondents in
barring the Petitioners the right to obtain a permit or the right to
commence the process to obtain a permit to conduct HVHF on their own
private land was arbitrary, irrational, capricious, meritless, not based on
science, technology, best management practices and constituted a
Taking and violation of Due Process under the United States Constitution.

The Complaint filed in the WDNY was based directly upon the
studies prepared by Respondents. The facts, allegations and statements in
the Civil Complaint were literally derived almost word for word directly
from the Executive Summary of the Revised draft Supplemental Generic
Environmental

Impact

Statement

(Revised

dSGEIS).

This

study

is

approximately 1500 pages in length with a bibliography of approximately
1200 scientific and research studies. The Respondents' studies, which
commenced as early as 1992, established that the temporary and
permanent bans by Respondents were in violation of the United States
Constitution. Respondents were absolutely aware, pursuant to their own
studies, that "unconventional" drilling (HVHF) was the only technology that
would be commercially used in the State of New York as "conventional"
drilling had become obsolete from a commercial and economic
perspective, as well as environmental.
5

Petitioners further argued that the Respondents' "permanent" ban
was not based on the previous studies, research and analysis but rather a
"new

study"

derived

from

speculation,

conjecture,

and

meritless

conclusions not supported by science, technology, or geology. The New
York State Department of Health (DOH) study, which was completed in
the Fall of 2014, the basis for the permanent ban, was in direct conflict
with the extensive studies of the Respondents that have concluded that
HVHF is a safe and useful means in the extraction of natural gas reserves.
That for at least the past ten (10) years, Petitioners have very
actively tried to conduct HVHF gas exploration on their properties but
have been unsuccessful as a result of the "temporary ban" that
eventually led to the "permanent ban". During this time, Petitioners have
been advised by Respondents that it would not be possible to obtain a
permit or to even commence the permit process as there was a "ban".
However, Respondents have argued in all court proceedings that
Petitioners did not have standing simply because they did not apply for
a permit. Inconsistent with reason, logic or common sense, the courts
have held that Petitioners did not have standing to commence legal
proceedings as a result of their failure to apply for a permit even though
Respondents have admitted otherwise. That in 2010 Governor Patterson
6

issued an Executive Order prohibiting the issuance of any permits for
HVHF and in January 2011, Governor Cuomo extended the Order. The
Executive Orders barred all landowners or entities from attempting to
apply for a HVHF permit.
However, on or about April 3, 2020, the Governor of New York
State has signed into law a permanent ban on HVHF. (2020 Laws of New
York, Chapter 59, A-9508). Now, the ban on HVHF is not a regulatory
decision by Respondent Department of Environmental Conservation, but
rather an absolute permanent ban in the State of New York which has
only exacerbated the constitutional violations of “takings” and “due
process.”
2. Respondents’ Extensive Studies Determine That High Volume
Hydrofracking is a Viable Means to Extract Natural Gas in New York
State
The Respondents have conducted very extensive and detailed
studies for "fracking" and HVHF to be conducted in the State of New
York. During the past twenty-five (25) years, the Respondents have
thoroughly analyzed, critiqued and deciphered extensive studies and
conducted research involving HVHF. The Respondents have also
established and promulgated extensive proposed rules and regulations
to preserve the needed conservation practices of soil, water, and air
7

quality in protecting the best interests of all residents and citizens of the
State of New York. The hereinstated rules and regulations are greatly in
excess of the standards established by the United States Environmental
Protection Agency (under the Obama/Trump administrations) or any
other 38 states (including California) that conduct HVHF. These studies
have clearly set forth that HVHF in the State of New York is a viable and
acceptable practice of retrieving and extracting the enormous gas
reserves in Western New York and in particular, the Southern Tier of New
York incorporating Petitioners' properties.
The Respondents proposed very strict regulations to ensure
potential environmental impacts resulting from HVHF were mitigated to
the maximum extent practical that is consistent with the legislative
objectives in the Environmental Conservation Law (ECL).
The actions taken by the Respondents are not based on science,
technology or even conservation. Unequivocally, the decision of the
Respondents in barring the Petitioners the right to obtain a permit or the
right to commence the process to obtain a permit to conduct HVHF on
their own private lands is arbitrary, irrational, capricious, meritless, not
based on science, technology, best management practices and
constituted a Taking and violation of Due Process under the United
States Constitution. The decision to permanently ban HVHF is politically
8

motivated and is a clear constitutional violation.
3. High Volume Hydraulic Fracturing (HVHF)

High volume hydraulic fracturing (HVHF) is a type of drilling that
has been used commercially for approximately 65 years. Today, the
combination of advanced hydraulic fracturing and horizontal drilling,
employing cutting-edge technologies, is mostly responsible for surging
United States oil and natural gas production. HVHF involves safely
tapping shale and other tight- rock formations by drilling a mile or more
below the surface before gradually turning horizontal and continuing up
to twenty-five thousand feet or more. Thus, a single surface site can
accommodate a number of wells. Once the well is drilled, cased and
cemented, small perforations are made in the horizontal portion of the
well pipe, through which a typical mixture of water (approximately 90%),
sand (9.5%) and additives (0.5%) is pumped at high pressure to create
micro-fractures in the rock that are held open by the grains of sand.
Additives play a number of roles, including helping to reduce friction
(thereby reducing the amount of pumping pressure from diesel-powered
sources, which reduces air emissions), and prevent pipe corrosion, which
in turn helps protect the environment and boosts well efficiency.
9

Increased production of domestic natural gas resources from deep
underground shale deposits in other parts of the United States has
dramatically altered future energy supply projections and has the
promise of lowering costs for users and purchasers of this energy
commodity. HVHF is distinct from other types of well completion that
have

been

allowed

in

the

State

of

New

York.

Horizontal

(unconventional) drilling results in fewer well pads than traditional
vertical (conventional) well drilling.
In New York State, the primary target for shale-gas development
would be the Marcellus Shale, with the deeper Utica Shale also
identified as a potential resource. Recent studies have indicated that
the Marcellus Shale may be the largest natural gas shale formation in
the world.
B. STATE COURT PROCEDURE
1. Exhaustion of State Administrative Remedies
That

Petitioners

had

contacted

representatives

of

the

Respondents over a number of years seeking permission to commence
the permit process and eventually receive a permit to conduct high
volume hydraulic fracturing (HVHF). That on or about January 16, 2015,
the Respondents informed Petitioners that the ban and prohibition for
10

HVHF in the State of New York applied to all owners of property in New
York.
2. Exhaustion of State Remedies
That Petitioners, in order to comply with Williamson County
Regional Planning Commission v. Hamilton Bank of Johnson City, 473
U.S. 172 (1985), commenced a special proceeding in the New York
State Supreme Court. Petitioners argued that said ban was arbitrary,
capricious and violated their rights under the Constitutions of the United
States and New York State.
On February 10, 2016, the New York State Supreme Court granted
Respondents' Motion to Dismiss the Petition in its entirety for lack of
standing. A Notice of Appeal was timely filed by Petitioners on or about
March 3, 2016. Under no conditions did the New York State Courts
provide a full and fair opportunity for the constitutional issues to be
heard. There was no decision relative to the constitutional issues on the
merits.
Thereafter, the Petitioners filed a timely appeal to the New York State
Supreme Court Appellate Division-Third Department. The appellate
court, on April 13, 2017, held that the Petitioners lacked standing for
failure to file for a permit and the other issues were rendered "academic"
11

Petitioners then filed motions dated April 20, 2017 at the New York
State Court of Appeals seeking leave to appeal. The motion was denied
in an Order dated September 7, 2017.
The only issue decided, in the New York State Courts, was standing.
The state courts did not address the identical constitutional claims set
forth in the Complaint/Amended Complaint filed in the United States
District Court (WDNY). The Respondents did not file an Answer, no
discovery proceedings were conducted, and a Motion for Summary
Judgment was never filed.
C. DISTRICT COURT PROCEDURE
On December 12, 2017, Petitioners filed a 95 page Complaint in the
United States District Court-Western District of New York under Docket No.
17-CV-6853 alleging two (2) causes of action:
a)

Regulatory Taking in violation of the Fifth and
Fourteenth Amendments through 42 U.S.C. §1983;
and

b)

Violation of Due Process Clause of the Fourteenth Amendment. The

Complaint contained 191 paragraphs setting forth the allegations that
Respondents violated Petitioners' constitutional rights. Thereafter, on
March 16, 2018 Petitioners filed a 104 page Amended Civil Complaint
pursuant to a Rule 15 application. The new Complaint maintained the

12

counts and allegations against the same Respondents from the original
Complaint but accounted for additional factual information.
The United States District Court denied the application and
dismissed the Complaint pursuant to a Notice of Motion to Dismiss filed by
Respondents on June 18, 2018 and August 7, 2018 (A-1, B-1).
D. SECOND CIRCUIT DECISION
In the Amended Summary Order (C-1), the Second Circuit upheld
the lower court’s dismissal. At the Second Circuit the Petitioners argued
that the district court abused its discretion in dismissing the Petitioners’
Complaint/causes of action: as it did not follow the ripeness doctrine set
out in Williamson County Regional Planning Commission; improperly
dismissed the Complaint pursuant to Rule12(b)(6); that the motion to
amend was not futile; Petitioners pled a plausible claim for prospective
relief; that Petitioners met the standard for obtaining leave to file an
amended complaint under Rule 15; the case was incorrectly barred
under the Eleventh Amendment; said causes of action should not have
been dismissed for collateral estoppel and res judicata; Petitioners had
standing to sue; that constitutional issues were not addressed in state
court; and the three (3) additional points stated herein involving “takings,”
“due process” and interstate commerce.
13

REASONS FOR GRANTING THE PETITION
1.
THE NEW YORK STATE LAW, ADOPTED ON OR ABOUT APRIL
3, 2020, PERMANENTLY BANNING HIGH VOLUME HYDRAULIC
FRACTURING
IN THE STATE OF NEW YORK IS AN
UNCONSTITUTIONAL TAKING AS THE LAW IS IN VIOLATION OF THE
UNITED STATES CONSTITUTION UNDER THE FIFTH AND FOURTEENTH
AMENDMENTS
In the original Complaint, Petitioners clearly established a "Taking"
by the illegal actions of the Respondents. Additional information
pursuant to Respondents' request/objections were incorporated relative
to the "Takings" issue in the proposed Amended Complaint. The
information incorporated in the Amended Complaint consisted of the
size of the acreage, tax map numbers, location and dates of purchase.
The acreage purchased in 2014 in the Town of Cuba, County of
Allegany was specifically purchased ONLY for natural gas exploration
using "unconventional" HVHF technology. Said property was not
purchased for any other business or recreational reasons and/or
purposes.
The properties owned by Petitioners pursuant to the Respondents'
own studies and research, all have Marcellus and Utica Shale formations
underlying said properties and are capable of commercial production.
The properties satisfy all of Respondents' requirements necessary to
obtain drilling permits, and pursuant to technology, will only be
14

commercially developed by the use of HVHF.
Respondents' prohibition against HVHF is the only reason that a
drilling permit(s) will not be granted on Petitioners' properties. That if
Respondents did not prohibit HVHF, Petitioners would have been able to
enter into oil and gas leases with exploration companies that were
capable of, and prepared to develop the oil and gas underlying said
properties, as well as other properties located in the Southern Tier of the
State of New York.
It is well established and admitted by Respondents that a permit
application for the approval of HVHF would have been denied since
2008 to the present.
Moreover, as clearly established, Petitioners own the mineral rights
on their properties. The Petitioners have an absolute legal right, as
owners, to exploit, mine and/or produce any or all the minerals lying
below the surface of said properties. Petitioners not only have the right
to extract said resources but also can convey their interests in said
economic assets. The Petitioners have the absolute legal right to the
following:
A.

The right to use as much of the surface as is
reasonably necessary to access the minerals on
their property;

B.

The right to further convey these mineral rights;
15

The right to receive economic consideration

C.

from conveying said rights;
D.

The right to receive delay rentals; and

E.

The right to receive royalties.

Additionally, Petitioners may separately convey any or all of the
above listed interest as they have viable economic interest in the
minerals under the surface of their properties. The Respondents' ban has
taken Petitioners' ability in the development and exploration of, in
particular, the natural gas in the Marcellus and Utica Shale plays.
Further,

the

ban

on

HVHF

on

Petitioners'

properties

has

systematically denied the right for gas and oil exploration. It is not
economically feasible and a severe economic hardship will be placed
on Petitioners to conduct "conventional" drill sites when "unconventional"
HVHF technology would extract the natural gas in a more efficient and
economic way. The ban by Respondents has taken Petitioners' right in
violation of the 5th and 14th Amendments of the United States
Constitution to conduct exploration on said properties. In a practical
sense, single well conventional drilling is not a viable means of extraction
of natural gas as the industry does not and will not invest in
"conventional fracking". The industry does not use "conventional
fracking" technology as it is outdated technology and is not an

16

acceptable practice in the 21st Century. Only "unconventional" HVHF
technology is generally being used at this time.
In 1922, the first real case of any significance in interpreting the
"Takings Clause" of the 5th Amendment, the Court decided Pennsylvania
Coal vs. Mahon, 260 US 393 (1922). This case involved a regulation
enacted by the Pennsylvania legislation to prohibit mining of coal
under streets, houses and places of public assembly. The Coal Company held
mineral rights in Northeast Pennsylvania and had sold the surface rights
to others. The Coal Company argued that a "taking" had occurred
under these regulations because it was unable to mine the coal. The
United States Supreme Court agreed and said that, while property may
be regulated, if the regulation goes "too far", it constitutes a
compensational taking. Though no compensation was ordered in that
case, the Pennsylvania law was deemed invalid and the Coal Company
was able to extract and use their mineral rights.
Also, governmental land use regulation, that denies the property
owner of economically viable use of their land, is deemed a "taking" of
the affected property. See Lucas vs. South Carolina Coastal Council, 505
US 1003 (1992); First English Evangelical Lutheran Church vs. County of
Los Angeles (1987). In Agins vs. City of Tiburon, 447 US 25 (1980) the Court
held that the application of land use regulations to a particular piece of
17

property is a "taking" "if the ordinance does not substantially advance
legitimate State interest . . . or denies an owner economically viable use
of his/her land". However, in Lingle vs. Chevron, 544 US 528 (2005), the
Court overruled the "substantially advanced" criterion of a "taking".
When a government regulation affects a "taking" of private property by
such excessive regulation, the owner may initiate inverse condemnation
proceedings to recover the just compensation for the taking of his or her
property.
The inverse condemnation is a term which describes a claim
brought against the government in which a property owner seeks
compensation for a "taking" of property under the 5th Amendment. In
the inverse condemnation context, it is the property owner who sues the
Government, alleging the "taking"of property without just compensation.
See San Diego Gas and Electric Company vs. City of San Diego, 450 US
621 (1981); United States vs. Clark, 445 US 253 (1980); and Agins supra.
The Petitioners submit that the Respondents' ban on HVHF is a
classic violation of their constitutional rights under the United States
Constitution. To argue that there is a legitimate state interest in the ban is
a sham that can easily be overcome in any fact finding hearing or trial

18

as rank and file employees of Respondents will testify contrary to the
political position taken by the State of New York.
Very

simply,

the

Fifth

Amendment

to

the

United

States

Constitution, applied to the States through the Fourteenth Amendment,
provides "nor shall private property be taken for public use, without just
compensation." United States Constitution Amendment V. The actions
taken by Respondents are "under color of State law" within the meaning
of 42 U.S.C. §1983. Therefore, this Court should overturn the dismissal of
the civil action against Respondents for damages. The Court has held
that a taking categorically occurs when a regulation

"denies

economically beneficial or productive use of land." Lucas v. S.C.
Coastal Council, 505 U.S. 1003 (1992). The actions taken by the
Respondents have deprived the Petitioners of the use of their property
through their governmental regulation and now permanent law.
Respondents'

prohibition

against

HVHF

constitutes

a

denial

of

economically viable use of the Petitioners' properties. Therefore,
Petitioners are entitled to just compensation for a taking of their
property under the Fifth Amendment. The dismissal was an absolute
abuse of discretion by the District Court. Dismissing this cause of action
was a fundamental miscarriage of justice. The Second Circuit decision
has continued the abuse.

19

2.
THE NEW YORK STATE LAW, ADOPTED ON OR ABOUT APRIL 3,
2020, PERMANENTLY BANNING HIGH VOLUME HYDRAULIC
FRACTURING IN THE STATE OF NEW YORK IS A VIOLATION OF DUE
PROCESS OF THE UNITED STATES CONSTITUTION UNDER THE FOURTH
AND FOURTEENTH AMENDMENT
The Petitioners have clearly stated a cause of action in both the
Complaint and Amended Complaint involving a violation of Due Process
clause of the Fourth and Fourteenth Amendments. As previously stated,
the Complaint/Amended Complaint directly addresses the arbitrary and
irrational restrictions on Petitioners' property rights which violate Due
Process. The Compliant/Amended Complaint clearly established that the
regulations for banning HVHF were arbitrary and "shocks the conscious."
The Fourteenth Amendment provides that no State "shall deprive
any person of life, liberty or property, without due process of law." That
as a result of Respondents' actions, "under color of State law" within the
meaning of 42 U.S.C.§1983, the Court of Appeals should have remanded
this civil action back to the District Court to allow the parties to litigate
and give Petitioners the chance to establish damages for a violation of
the United States Constitution.
The Court has recognized that "a regulation that fails to serve any
legitimate governmental objective may be so arbitrary or irrational that it
runs afoul of the Due Process Clause". Lingle vs Chevron, U.S.A. Inc.,
544 U.S. 528 (2005). The Respondents' decision to preclude Petitioners, or
20

anyone else, from extracting natural gas and other petroleum based
products by HVHF on their properties is arbitrary, irrational and runs afoul
of the Due Process clause. The Respondents' actions:
a. In banning HVHF violates due process as it is an abuse of
executive power and "shocks the conscience". See Collins vs City of
Harber Heights,TEX 503 US 115 (1992);
b. In banning HVHF has completely ignored the conclusions in their
own studies, set forth herein for the past twenty-five (25) years;
c. In

banning

HVHF

has

ignored

the

conclusions

of

the

overwhelming scientific evidence, geology, technology, and research
of not only its own studies, but independent studies and research from
an excess of 1,200 sources set forth in its own Revised dSGEIS study;
d. In banning HVHF has completely ignored the conclusions of the
studies and research conducted by Federal Agencies consisting of the
Environmental Protection Agency, Department of Interior, United States
Geological Survey, to name a few, under the Obama administration
and current administration;
e. In banning HVHF has completely ignored the conclusions of
studies of at least 38 other states, including California, that HVHF is a
viable and safe means to extract natural gas from "black" shale
formations;
f. Ignored overwhelming scientific evidence, technology, geology
and research in banning HVHF is "arbitrary in the constitutional sense" as
an abuse that "shocks the conscience that it did not comport with
traditional ideas of fair play and decency." See Breithaupt vs Abram,
352 US 432 (1957);

21

g. In banning HVHF is conduct that violates substantive due process
as it does not comport with traditional ideas of fair play and decency.
id;
h. In banning HVHF is conduct that is egregious and an exercise of
power without any reasonable justification. See Lombardi vs Whitman,
485 US F2d 73 (2nd Circ. 2007); and
i. In banning HVHF on unfounded allegations by environmental
groups for political reasons and not based on scientific evidence,
technology, geology or research has violated Petitioners' constitutional
rights to due process.
Simply, prohibiting extraction of natural gas and petroleum based
products by HVHF technology is an arbitrary and irrational restriction on
Petitioners' property rights and violates the Due Process Clause.
Therefore, Petitioners are entitled to damages pursuant to 42 U.S.C.
§1983. The District Court's dismissal was fundamentally wrong, misplaced
and abused its discretion in dismissing the cause of actions. The Court of
Appeals did not overrule the lower court’s decision.
Finally, the Respondents have completely "missed the point"
relative to: value of property; technology in regard to drilling; and
surface use of properties. As has been stated, the value of the surface
property and use thereof is minimal and negligible compared to the
value of the property allowing HVHF. In regard to technology, between
"conventional" and "unconventional" drilling, exploration companies will

22

not conduct "conventional" drilling. Approximately 95% of all gas and oil
exploration is now done through HVHF in the United States. It is not
economical for "conventional" drilling when "unconventional" drilling is
more viable, economically efficient and more environmentally safe using
best management practices. Finally, in regard to surface use of the
properties: agricultural value is minimal and negligible; timber value is
minimal and negligible; and there is no potential for "housing" value. The
acreage is located in the Southern Tier in "desolate" and/or minimal
habitable areas of Allegany County in the State of New York. The
properties in question are in areas that are economically destitute.
3.
THE UNITED STATES COURT OF APPEALS-SECOND CIRCUIT
IMPROPERLY APPLIED OR IGNORED THE DICTATES AND
REASONING OF THE COURT IN ROSEMARY KNICK, PETITIONER VS
TOWNSHIP OF SCOTT, PENNSLYVANIA, ET AL., 588 U.S. ____ (2019),
Docket No. 17-647, held on June 21, 2019.

The Fifth Amendment to the United States Constitution provides:
"nor shall private property be taken for public use, without just
compensation." U.S. Constitution Amendment V. This very simple and
straightforward right is easy to understand but very complex to apply in
litigation. Respectfully, the District Court abused its discretion in holding
that Petitioners' causes of actions must be dismissed because of
collateral estoppel, issue preclusion and res judicata as the matters were
“litigated” in state court.
23

The central issue in this entire case is whether or not Petitioners are
entitled to a realistic and fair opportunity to seek compensation for a
constitutional "taking" and violation of “due process” involving their
property rights within the meaning of the Fourth, Fifth and Fourteenth
Amendments to the United States Constitution. Pursuant to the District
Court's determination, Petitioners had no such opportunity. However,
prior to the commencement of the case at bar, Petitioners were very
much aware that they had to comply with the Court’s decision of
Williamson County Regional Planning Commission v. Hamilton Bank of
Johnson City, 473 U.S. 172 (1985).
Under that decision, Petitioners could not hold the state government
liable for a taking of their property rights in federal court until they
exhausted state court remedies. In application, this rule barred Petitioners
from vindicating their constitutional property rights in federal courts and
stripped them of reasonable access to the federal courts to address
federal constitutional issues. Petitioners, pursuant to the hereinstated rule,
exhausted their state remedies in order to litigate the takings controversy
in the United States District Court (WDNY).
The Petitioners filed a Complaint and Amended Complaint under
the Fourth and Fourteenth Amendments and the takings clause of the
Fifth Amendment. The District Court granted the Respondents' Motion to

24

Dismiss and held that the Petitioners’ claim that the HVHF ban failed to
conform with the constitutional requirements was fully litigated in state
courts. Therefore, the District Court held that Petitioners were precluded to
address said constitutional issues in the federal courts. Respectfully, this
determination was wrong.
The Court in Rose Mary Knick, Petitioner v. Township of Scott,
Pennsylvania, et al., 588 U.S.___(2019), Docket No. 17-647, held on June 21,
2019 that the Takings Clause of the Fifth Amendment states that “private
property (shall not) be taken for public use, without just compensation.” In
Williamson County, “the (United States Supreme Court) held that a
property owner whose property has been taken by a local government
has not suffered a violation of his Fifth Amendment rights-and thus cannot
bring a federal takings claim in federal court-until a state court has denied
his claim for just compensation under state law.“ Knick at 1.
The Court in Knick further held that “the Williamson County Court
anticipated that if the property owner failed to secure just compensation
under state law in state court, he would be able to bring a “ripe” federal
takings claim in federal court. See id., at 194. But as (the Supreme Court)
later held in San Remo Hotel, L.P. v. City and County of San Francisco, 545
U.S. 323 (2005), a state court’s resolution of a claim for just compensation
under state law generally has preclusive effect in any subsequent federal
suit. The takings plaintiff thus finds himself in a Catch-22: he cannot go to
25

federal court without going to state court first; but if he goes to state court
and loses, his claim will be barred in federal court. The federal claim dies
aborning.” Knick at 2.
Continuing, the Court in Knick held that the San Remo preclusion
trap should have tipped off the (Supreme Court) that the state-litigation
requirement rested on a mistaken view of the Fifth Amendment. “The Civil
Rights Act of 1871, after all, guaranteed “a federal forum for claims of
unconstitutional treatment at the hands of state officials,” and the settled
rule is that “exhaustion of state remedies“ is not a prerequisite to an action
under 42 U.S.C. §1983.” Heck v. Humphrey, 512 U.S. 477 (1994)(quoting
Patsy v. Board of Regents of Florida, 457 U.S. 496 (1982). Knick at 2.
The Court further held in Knick that “we now conclude that the
state-litigation requirement imposes an unjustifiable burden on takings
plaintiffs, conflicts with the rest of our takings jurisprudence, and must be
overruled. Knick at 2.
In the case at bar, the Petitioners were required to commence their
constitutional causes of action in the state courts of New York. The
constitutional issues were never resolved in the state courts of New York.
Rather, the state courts erroneously ruled that the Petitioners did not have
standing. This issue has been addressed in multiple points of Petitioners’
(Appellants’) Second Amended Brief. Nevertheless, pursuant to the

26

recently overturned case of Williamson County, Petitioners were required
to commence actions in the state courts rather than proceed directly to
federal court under a §1983 action. As a result of the Williamson County
requirement, the District Court ruled that Petitioners were precluded to file
federal claims. The Knick opinion stated herein completely vindicates the
position of Petitioners which absolutely and unconditionally establishes
that the decision by the District Court was improper.
The Court in Knick has held that “the unanticipated consequences
of this ruling were not clear until 20 years later, when this Court decided
San Remo. In that case, the takings plaintiffs complied with Williamson
County and brought a claim for compensation in state court. 545 U.S., at
331. The Complaint made clear that the Plaintiffs sought relief only under
the Takings Clause of the state constitution, intending to reserve their Fifth
Amendment claim for a later federal suit if the state suit proved
unsuccessful. Id. at 331-332. When that happened, however, and the
Plaintiffs proceeded to federal court, they found that their federal claim
was barred.” Knick at 5.
In San Remo, the Court held that the “full faith and credit statute, 28
U.S.C. §1738, required the federal court to give preclusive effect to the
state court’s decision, blocking any subsequent consideration of whether
the plaintiff had suffered a taking within the meaning of the Fifth
Amendment. See 545 U.S. at 347. The adverse state court decision that,
27

according to Williamson County, gave rise to a ripe federal takings claim
simultaneously barred that claim, thus preventing the federal court from
ever considering it.” Knick at 6.
The Court further held in Knick that the “Williamson County
effectively established an exhaustion requirement for §1983 takings claims
when it held that a property owner must pursue state procedures for
obtaining compensation before bringing a federal lawsuit…Instead,
Williamson County broke with the Court’s longstanding position that a
property owner has a constitutional claim to compensation at the time the
government deprives him of his property, and held that there can be no
uncompensated taking, and thus no Fifth Amendment claim actionable
under §1983, until the property owner has tried and failed to obtain
compensation through the available state procedure. “(U)ntil it has used
the procedure and been denied just compensation,” the property owner
“has no claim against the government for a taking.” 473 U.S., at 194-195
(quoting Ruckelshaus v. Monsanto Co., 467 U.S. 986, 1018, n.21 (1984).”
Knick at 12. The Court then determined that takings claims against local
governments should be handled the same as other claims under the Bill of
Rights. Williamson County erred in holding otherwise. Knick at 20.

28

The Court then stated “because of its shaky foundations, the statelitigation requirement has been a rule in search of a justification for over 30
years.” Knick at 21-22. The Court then determined that “the state-litigation
requirement has also proved to be unworkable in practice. Williamson
County envisioned that the takings plaintiffs would ripen their federal
claims in state court and then, if necessary, bring a federal suit under
§1983. But, as we held in San Remo, the state court’s resolution of the
plaintiff’s inverse condemnation claim has preclusive effect in any
subsequent federal suit. The upshot is that many takings plaintiffs never
have the opportunity to litigate in a federal forum that §1983 by its terms
seems to provide. That significant consequence was not considered by
the Court in Williamson County.” Knick at 22.
In conclusion, the Court in Knick held that “takings plaintiffs, unlike
plaintiffs bringing any other constitutional claim, would still have been
forced to pursue relief under state law before they could bring suit in
federal court. Congress could not have lifted that unjustified exhaustion
requirement because, under Williamson County, a property owner had no
federal claim until a state court denied him compensation.” The Court
then concluded that “state-litigation requirement of Williamson County is
overruled. A property owner may bring a takings claim under §1983 upon
the taking of his property without just compensation by a local
government.” Knick at 22-23.
29

Petitioners were required to file and litigate state claims before
bringing an action in the District Court.

This Court should not bar the

Petitioners their lawful right to address federal constitutional claims in a
federal court. The Williamson County requirement imposed upon
Petitioners is fundamentally wrong and a miscarriage of justice.
Respectfully, Petitioners asked the Court of Appeals to correct the rights of
Petitioners in bringing constitutional claims involving property rights in a
federal court without having their causes of action dismissed as a result of
attempting to comply with the Court’s decision in Williamson County.
4.
THE NEW YORK STATE LAW, ADOPTED ON OR ABOUT APRIL 3,
2020, PERMANENTLY BANNING HIGH VOLUME HYDRAULIC
FRACTURING IN THE STATE OF NEW YORK IS A VIOLATION OF
INTERSTATE COMMERCE
The Commerce Clause-Article 1, Section 8, Clause 3 of the United
States Constitution-grants Congress the power "to regulate commerce
with foreign nations, and among the several states, and with the Indian
tribes." U.S. Const. Art.1, §8 CL.3. The Commerce Clause has an expansive
history, and the Court has interpreted it to expressly grant authority to
Congress and limit the power of the states, to regulate commerce. See
NLRB vs Jones and Laughlin Steel Corp., 301 US 1 (1937; United States vs
Lopez, 514 US 549 (1995). The Court has held that the Commerce Clause
limits states' ability to "unjustifiably- discriminate against or burden the

30

interstate flow of articles of commerce." See Or. Waste Sys.,Inc. vs Dep’t of
Envtl. Quality, 511 US 93 (1994).
The Commerce Clause gives Congress the power to make all laws
which shall be necessary and proper for the execution of enumerated
powers, including the power to regulate the commerce. Further, the
Commerce Clause is not only a positive grant of power to Congress, but it
is also a negative constraint upon the states. In Swift & Company vs United
States, 196 US 375 (1905), the Court stated that even business done at the
local level can become part of a continuous current of interstate
movement of goods and services and be considered commerce if it had
a "substantial economic effect" on interstate commerce, or if the
"cumulative effect" could have a substantial economic impact on
interstate commerce.
The ban on HVHF in the State of New York has had an enormous
impact on exploration, storage, disposal and transportation activities of
natural gas which are a part of a continuous "current" of interstate
movement of goods and services in the national and global energy
market. The permanent ban on HVHF activities in the State of New York
are demonstratibly having a "substantial economic effect" individually
and cumulatively on interstate commerce. Petitioners, in particular, are
deprived of either the right to market their mineral, oil and natural gas
natural resources to interstate markets as well as out of state purchasers
31

are deprived of the ability to purchase the oil and gas products from
Petitioners and other New York property owners and companies. Where a
regulation clearly discriminates against interstate commerce on its face,
as Petitioners submit, that regulation violates the Constitution.
The natural gas industry supports millions of jobs, either directly
through companies engaged in exploration and drilling or indirectly
through manufactures that use the fuel as a raw material. The real
potential for economic impact, however, lies in the vast reservoirs of shale
gas accessible through unconventional drilling in the State of New York. In
prohibiting the drilling and production of a significant segment of the
United States' shale gas, the Petitioners are subject to a serious economic
loss and said ban violates interstate commerce.
5.
THE DECISION BY THE UNITED STATES COURT OF APPEALSSECOND CIRCUIT WAS A DENIAL OF FUNDAMENTAL RIGHTS OF
JUSTICE AS PETITIONERS WERE NOT ALLOWED: TO AMEND THEIR
COMPLAINT; THE FED.R.CIV.P 12(b)(6) MOTION SHOULD HAVE
BEEN DENIED; THE SUIT SHOULD NOT HAVE BEEN BARRED UNDER
THE ELEVENTH AMENDMENT; AND PETITIONERS HAD STANDING TO
SUE RESPONDENTS
A. MOTION TO AMEND COMPLAINT
Petitioners moved the District Court, pursuant to Rule 15, for leave
to file an Amended Complaint. The Amended Complaint maintained
the same counts and allegations against the same (Defendants) from
the original complaint but accounted for additional factual information.
32

The amendments to the Amended Complaint included:
A.

Correcting the classification of Respondent Basil Seggos under
the color of law in his personal and individual capacity;

B. Supplying more detailed information in regard to the original New York
State proceedings for clarification;
C. Supplying more detailed information in regard to location,
acreage, tax map numbers and ownership of the
property(s) subject to the lawsuit;
D. More detailed allegations under the Second Cause of Action in
regard to due process; and
E. A request for judgment to be awarded to the Petitioners for
treble damages and injunctive relief.
The Amended Complaint added additional information and
clarification for the Respondents to adequately respond in filing an
Answer. Moreover, the Amended Complaint did not alter the general
allegations in the two causes of action set forth in the original Complaint
Pursuant to Fed. R. Civ. P. 15(a)(2), "a party may amend its
pleading only with the opposing party's written consent or the court's
leave. The court should freely give leave when justice so requires." It is
acknowledged that the decision whether to grant leave to amend a
pleading is within the sound discretion of the district court, but as all
Circuits aptly recognize, this discretion is strictly circumscribed by the
proviso that "leave (should) be freely given when justice so requires".
33

Gramegna v. Johnson, 846 F. 2d 675 (11th Circuit 1988). Therefore, a
justifying reason must be apparent for denial of a Motion to Amend.
"Unless a substantial reason exists to deny leave to amend, the discretion
of the district court is not broad enough to permit denial." See Shipner v.
Eastern Air Lines, Inc., 868 F. 2nd 401 (11th Cir. 1989).
In the interest of justice, the District Court should have granted
Petitioners' Motion to Amend given the clear absence of any substantial
reason to deny leave to amend.
B. MOTION TO DISMISS
In reviewing a complaint for dismissal under Rule 12(b)(6), the
complaint may be dismissed only where "it appears beyond doubt that
the plaintiff can prove no set of facts in support of his claim which would
entitle him to relief." Connelly vs Gibson, 355 US 41 (1957). To survive
dismissal for failure to state a claim, a complaint must simply "give the
defendants their notice of what the claim is and the grounds upon
which it rests." Bell Atl. Corp. vs Twombly, 550 US 544 (2007).
In considering a Rule 12(b)(6) motion, "(t)he issue is not whether
the plaintiff will ultimately prevail but whether the claimant is entitled to
offer evidence to support the claim." Scheuer v Rhodes, 416 US 232
(1974).

34

The Court has laid down in two cases, the guidelines to determine
whether the factual allegations of a complaint are sufficient in content
and form to survive a motion to dismiss. Those cases are Bell Atlantic
Corp vs Twombly, 550 US 544 (2007) and Ashcroft vs Iqbal, 556 US 662
(2009).
"To survive a motion to dismiss, a complaint must contain
sufficient factual matter, accepted as true, to state a claim
that is plausible on its face." Iqbal, 556 US at 678 (quoting
Twombly, 550 US at 570). This pleading standard creates a
"two-pronged approach," Iqbal,556 US at 679, based on
"(t)wo working principles," id at 678.
First, although a complaint need not include detailed factual allegations,
it must provide "more than an unadorned, the-defendant-unlawfullyharmed-me accusation." Iqbal, 556 US at 678. Second, "(w)hen there are
well-pleaded factual allegations, a court should assume the veracity
and then determine whether they plausibly give rise to an entitlement to
relief." Iqbal 556 at 679. This "facial plausibility" prong requires the plaintiff
to plead facts 'allow(ing) the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.'" id at 678
Petitioners have raised two causes of action in the Complaint
/Amended Complaint. The first cause of action deals with a Taking in
violation of the Fifth and Fourteenth Amendments, through 42 USC §
1983. Further, it was alleged that the Court has held that a "taking"
categorically occurs when a regulation "denies economically beneficial
35

or productive use of land." Lucas v S.C. Coastal Council, 505 US 1003
(1992). It is a fact Respondents have banned HVHF in the State of New
York. The actions taken by the Respondents have deprived the
Petitioners of the use of their property (mineral rights) through
governmental action.
The second cause of action alleges a violation of Due Process
Clause of the Fourth and Fourteenth Amendment in that the Court has
recognized that "a regulation that fails to serve any legitimate
governmental objective may be so arbitrary or irrational that it runs afoul
of the due process clause." Lingel vs Chevron, USA Inc, 544 US 528 (2005).
The granting of Respondents' Motion to Dismiss was an abuse of
discretion by the lower courts.
C. SUIT SHOULD NOT HAVE BEEN BARRED UNDER THE ELEVENTH AMENDMENT
Petitioners strongly assert that the Respondents have violated
their civil rights guaranteed by 42 U.S.C. §1983. Further, Petitioners
acknowledge that they incorrectly brought the suit against the Acting
Commissioner Seggos in his "official" capacity though Petitioner was
aware that he had to commence the action in an "individual
capacity" or "private capacity." That was one of the reasons Petitioners
filed an application to amend the civil complaint. It was a simple mistake
that should not bar or destroy Petitioners' rights to commence this lawsuit.
36

To do so would be a horrendous miscarriage of justice. Respondent
Seggos, in the Amended Complaint was being sued, under color of law,
as a private citizen of the State of New York both personally and in his
individual and private capacity .
Petitioner is very much aware of the concept of sovereign
immunity arising under the Eleventh Amendment and its possible
prohibition in bringing suits against a State in Federal Court. Simply, in the
case at bar, Petitioner incorrectly stated in 'official' capacity and filed
motions to amend the Complaint to correct the hereinstated oversight.
The Respondents in no way suffered undue prejudice by the
proposed amendment. The Amended Complaint did not involve
addition of new defendants, set forth any new claims, or raise new
legal theories. The Respondents did not file an Answer, there had been
no discovery consisting of the exchange
documents,

interrogatories,

and

production

of

examinations before trial, fact finding

hearings or even a motion for Summary Judgment.

However, even if the Respondents, or more particularly the Acting
Commissioner was under the classification of "official capacity", the
Court has held that the Eleventh Amendment does not bar actions
against a state "official" when there is a violation of federal law and the
Petitioners are seeking an injunction that governs the official's future
37

conduct. See Edelman v Jordan, 415 US 651 (1974). Under this "wellknown exception" to Eleventh Amendment immunity, set forth in Ex Parte
Young, 209 US 123 (1908), "A plaintiff may sue a state official acting in his
official

capacity-

notwithstanding

the

Eleventh

Amendment,

for

prospective, injunctive relief from violations of federal law." In re Deposit
Ins Agency, 482 F 3d 612 (2d Cir 2007), State Employees Bargaining
Agent Cole vs Rowlan, 494 F 3d 71 (2d Cir 2007).
Petitioners also sought leave for injunctive relief-to enjoin the
Respondents from enforcing an illegal ban on HVHF.
D. THE COURTS ABUSED THEIR DISCRETION IN DISMISSING CAUSES OF
ACTION AS THERE WAS STANDING
The courts abused their discretion in determining that Petitioners
had no standing and did not establish an injury in fact. The Respondents
submitted that Petitioners failed to establish that they suffered a nonspeculative injury-in-fact as a direct result of the ban on HVHF. It was
readily submitted that the injuries received by Petitioners were concrete,
particularized, actual, imminent and not conjectural or hypothetical. See
Int’l Action Ctr vs City of New York, 587 F 3d 521 (2d Cir 2009).
Moreover,

Petitioners

Complaint/Amended

had

Complaint

clearly

established

identifiable,

in

concrete,

the
non-

speculative harm different from the public at large (see Lujan vs
Defenders of Wildlife, 504 US 555 (1992). Petitioners submitted that they
38

could establish that their injury is real and different from injury most
members of the public faces. See Bell Atl Corp vs Twombly, 550 US 544
(2007) and Congregation Rabbinical College of Tarticov, Inc. vs Village
of Pomona, 915 supp 2d 574 (SDNY 2013).
Next, Respondents argued in their Motion to Dismiss that
Petitioners' claims are speculative about intentions of third parties and
outcome of negotiations with said third parties. Thereafter, Respondents
argued that Petitioners needed concrete plans but failed to set forth
any in the Complaint. Again, Respondents' arguments are without merit
as no individual or entity in the State of New York could conduct HVHF
for the past ten (10) years.
Petitioners argued, that they clearly have standing and should be
distinguished from the public at large for the following reasons:
(a) Petitioners purchased 339 acres of land in Cuba, New York in
the latter part of April, 2014 for the specific purpose to conduct
HVHF;
(b) Petitioners are the owners of the properties;
(c) Petitioners pay the taxes on the properties;
(d) Petitioners own the mineral rights of natural gas and oil on
said properties;
(e) Petitioners' properties are in a feasible area to conduct HVHF
while the majority of the State of New York, and in excess of 99% of
the residents of the State of New York, could not do HVHF on their
own properties; and
39

(f) That the public at large is not economically disadvantaged by
the ban on Petitioners' properties.
The majority of the State of New York and the "public at large" are
not directly, or even indirectly, impacted by the ban on HVHF by
Respondents. Pursuant to Respondents' rules and regulations involving
set backs, water sheds, distances, spacing, etc., there are very few
landowners in the State of New York that could even attempt to do
HVHF. The majority of the State of New York does not have access to the
Marcellus Shale and Utica Shale plays.
There are only approximately seven (7) counties along the Pennsylvania
border, in the Southern Tier of New York, that are located in the
hereinstated areas. There are very few landowners in this region that
have the sizable acreage to have HVHF conducted on their own
properties. Petitioners' properties are in a unique situation and the ban
on HVHF has caused very serious economic and environmental hardship
and injury.
Finally, it is absolutely disingenuous for the Respondents to argue
that Petitioners did not have standing as they did not comply with the
permit applications or otherwise meet any of the statutory or regulatory
requirements for developing an oil and gas well in New York. Petitioners
were specifically told by Respondents that they could not apply for a
permit application, or apply for any other regulatory requirements for
40

developing an HVHF gas well in New York State until the "ban" was lifted
by Governor Cuomo and the Respondents. Simply, the Respondents
would not entertain any permit applications for HVHF.

CONCLUSION
The Court should grant the Petition for Writ of Certiorari.
Dated: May 6, 2020

Respectfully submitted,
/s/David R. Morabito, Esq.
David R. Morabito
and Colette M. G.
Morabito Pro Se
117 W. Commercial
Street PO Box 187
East Rochester, NY
14445 (585)586-5770

41

UNITED STATES SUPREME COURT

DAVID R. MORABITO and COLETTE M.G MORABITO,
Petitioners,
v.
THE STATE OF NEW YORK, THE NEW YORK STATE
DEPARTMENT OF ENVIRONMENTAL CONSERVATION
and BASIL SEGGOS, COMMISSIONER OF THE NEW
YORK STATE DEPARTMENT OF ENVIRONMENTAL
CONSERVATION
Respondents

CERTIFICATE OF COMPLIANCE WITH RULE 33.1(h)
Pursuant to Rule 33.1(h), I certify that the Petition for the Writ of
Certiorari contains 8,891 words, excluding the parts of the Petition
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on May 17, 2020.

__/s/ David R. Morabito_
David R. Morabito, Esq.

42

APPENDIX
Page

Decision and Order, U.S. District Court of the Western District of
New York, filed June 18, 2018 .......................................................... A-1
Decision and Order, U.S. District Court of the Western District of
New York, filed August 7, 2018 ........................................................ B-1
Amended Summary Order, U.S. Court of Appeals for the Second
Circuit,
Filed February 27, 2020 ..................................................................... C-1

43

A-1

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NEW YORK

DAVID R. MORABITO and COLETTE M.G.
MORABITO,
Plaintiffs,

No. 6:17-cv-06853-MAT
DECISION AND ORDER

-vsTHE STATE OF NEW YORK, THE NEW
YORK STATE DEPARTMENT OF
ENVIRONMENTAL CONSERVATION and
BASIL SEGGOS, Commisioner of the
New York State Department of
Environmental Conservation,
Defendants.

I. INTRODUCTION
Plaintiffs David R. Morabito (“Mr. Morabito”) and Collette
M.G. Morabito (“Mrs. Morabito”) (collectively “Plaintiffs” or the
“Morabitos”)
New

York

bring

(the

Environmental

this

suit

“State”),

Conservation

the

against
New

Defendants

York

(“NYSDEC”),

and

State

the

State

of

Department

of

NYSDEC

Commissioner

Basil Seggos (“Commissioner Seggos”) (collectively “Defendants”),
alleging violations of the Fifth Amendment’s “Takings” Clause and
the Fourteenth Amendment’s Due Process Clause. In particular,
Plaintiffs allege that the State’s decision to ban high-volume
hydraulic fracturing (“HVHF”) on property owned by Plaintiffs
constituted a regulatory taking and/or an arbitrary and irrational
restriction on Plaintiffs’ property rights.
Three motions are currently pending before the Court: a motion
to dismiss filed by Defendants (Docket No. 7) and two motions for
leave to file an amended complaint (Docket Nos. 11 and 14) filed by

A-2

Plaintiffs. For the reasons discussed below, Defendants’ motion is
granted and Plaintiffs’ motions are denied.
II.

FACTUAL AND PROCEDURAL BACKGROUND
The following facts are taken from Plaintiffs’ complaint,

filed in this Court on December 12, 2017.

Docket No. 1.

As

required at this stage of the proceedings, the Court has treated
Plaintiffs’ factual allegations as true.

The Court has further

taken judicial notice of the public proceedings held by NSYDEC
which culminated in the prohibition on HVHF in New York.

See

Schubert v. City of Rye, 775 F. Supp. 2d 689, 695 n.3 (S.D.N.Y.
2011) (courts may take judicial notice of state administrative
proceedings
records).

on

a

motion

to

dismiss,

because

they

are

public

The Court has limited its consideration of the public

record to the timing of the proceedings, and has not treated the
conclusions reached by NYSDEC as true. See id. (considering public
records “for the limiting purposes of determining the fact of the
meetings and the actions taken by the relevant parties, not for the
truth of any statements made during these proceedings”).
Plaintiffs are residents of Monroe County and have at all
relevant times been the owners in fee simple of properties located
in Monroe and Allegany Counties.

“[O]ver a number of years,”

Plaintiffs have contacted NYSDEC “seeking permission to receive a
permit or to commence the permit process to conduct high volume
hydraulic fracturing (HVHF) on their property(s) located in Western
New York.”

Docket No. 1 at ¶ 11.
2

A-3

HVFF is a well-stimulation technique used to extract natural
gas from rock.

New York State has been studying the environmental

impact of HVHF for a number of years.

In September 2009, pursuant

to New York’s State Environmental Quality Review Act (“SEQR”),
NYSDEC

issued

a

draft

supplemental

generic

impact

statement

(“SGEIS”) related to the potential future enactment of regulations
associated with HVHF.
In 2010, then-Governor David Paterson issued an executive
order prohibiting NYSDEC from issuing permits for HVHF pending the
completion of the SGEIS under SEQR.

This executive order was

extended by Governor Andrew Cuomo in 2011.
A period of public comment related to the draft SGEIS was
held, during which more than 13,000 public comments were submitted.
NYSDEC issued a revised draft SGEIS on September 7, 2011.

NYSDEC

held additional public hearings following the issuance of the
revised draft SGEIS and received another 67,000 public comments.
In 2012, former NYSDEC Commissioner Joseph Martens (“Former
Commissioner Martens”) asked Dr. Joseph Zucker, Commissioner of the
New York Department of Health (the “NYSDOH”), to review and assess
the potential health impacts set forth in the SGEIS.
conducted

a

public

health

review

in

which

it

The NYSDOH

reviewed

the

scientific literature, engaged outside expert consultants, engaged
in field visits, and communicated with various stakeholders.

In

December 2014, the NYSDOH released a Public Health Report of High-

3

A-4

Volume Hydraulic Fracturing for Shale Gas Development, in which it
recommended that HVHF not proceed in New York State.
According

to

Plaintiffs,

on

January

16,

2015,

Former

Commissioner Martens instructed Bradley J. Field, the former NYDEC
Director of the Division of Mineral Resources, to inform Plaintiffs
that New York’s HVHF prohibition would apply to all New York
property owners.
In June 2015, NYSDEC issued its final SGEIS related to HVHF,
as well as a legally binding Findings Statement.

The final SGEIS

and Findings Statement concluded that a prohibition on HVHF was the
best available alternative to balance environmental protection,
public health concerns, and economic and social considerations.
Mr. Morabito commenced an action1 in New York State Supreme
Court pursuant to Article 78 of New York’s Civil Procedure Law and
Rules, in which he alleged that the statewide ban on HVHF was
arbitrary and capricious and had deprived him of his right to due
process. Defendants sought dismissal and on February 10, 2016, the
New York State Supreme Court, Albany County (the “trial court”)
dismissed Mr. Morabito’s Article 78 petition in its entirety.

In

particular, the trial court concluded that Mr. Morabito lacked
standing to bring his action.

1

The complaint alleges that this action was commenced by “Plaintiff(s).”
See Docket No. 1 at ¶ 14).
A review of the judicial decisions issued in
connection with this action indicates that Mr. Morabito was the sole plaintiff.
See
Morabito v. Martens, 149 A.D.3d 1316 (3d Dep’t 2017), leave to appeal
denied, 29 N.Y.3d 916 (2017).

4

A-5

Mr. Morabito timely appealed the dismissal of his Article 78
petition

to

the

Appellate

“Appellate Division”).

Division,

Third

Department

(the

On appeal, Mr. Morabito contended that the

trial court had erred in finding that he lacked standing.

He

further argued that the matter should have been heard by a judge
who had participated in a program, put on by the National Judicial
College, that offered training on the mechanical aspects of HVHF,
and that the trial judge had labored under “preconceived and
prejudicial presumptions.”

Docket No. 1 at ¶ 16.

On April 13,

2017, the Appellate Division entered an order affirming the trial
court’s dismissal if the Article 78 petition.

See Morabito v.

Martens, 149 A.D.3d 1316 (3d Dep’t 2017).
Mr. Morabito sought leave to appeal the Appellate Division’s
decision to the New York State Court of Appeals (the “Court of
Appeals”).

The Court of Appeals denied Mr. Morabito’s request on

September 7, 2017.

See Morabito v. Martens, 29 N.Y.3d 916 (2017).

Plaintiffs then commenced the instant action on December 12, 2017.
Docket No. 1.
III. DISCUSSION
A.

Defendants’ Motion to Dismiss
1.

Legal Standard

“To survive a motion to dismiss [made pursuant to Federal Rule
of Civil Procedure 12(b)(6)], a complaint must contain sufficient
factual matter, accepted as true, to state a claim to relief that
is plausible on its face.”

Ashcroft v. Iqbal, 556 U.S. 662, 678
5

A-6
(2009) (internal quotation marks and citation omitted).

“A claim

has facial plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.”

Id.

Although a

complaint need not provide “detailed factual allegations,” it
nevertheless must assert “more than labels and conclusions,” and “a
formulaic recitation of the elements of a cause of action” will not
suffice.

Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 545 (2007).

The plaintiff must plead facts that “raise a right to relief above
the speculative level on the assumption that all the allegations in
the complaint are true.”

Id. (citations omitted).

In deciding the

a Rule 12(b)(6) motion, the Court must accept as tru, all factual
allegations

in

the

complaint,

and

must

inferences in favor of the nonmovant.

draw

all

reasonable

See Atwood v. Cohen &

Slamowitz LLP, 716 F. App’x 50, 52 (2d Cir. 2017).
2.

Defendants are Immune to Plaintiffs’ Claims

As a threshold matter, Defendants contend that this matter
must be dismissed because they are immune to Plaintiffs’ claims.
The Court agrees.

Moreover, because the Court finds this issue

dispositive, the Court does not reach Defendants’ other arguments
in favor of dismissal.
“[I]n the absence of consent a suit in which the State or one
of its agencies or departments is named as the defendant is
proscribed by the Eleventh Amendment.”

Pennhurst State Sch. &

Hosp. v. Halderman, 465 U.S. 89, 100 (1984); see also New Holland
6

A-7

Vill. Condo. v. DeStaso Enterprises Ltd., 139 F. Supp. 2d 499, 501
(S.D.N.Y. 2001) (“Absent a State’s consent or valid Congressional
abrogation of its sovereign immunity, a suit in federal court by
private parties against the State, its agencies, or its officials
acting in their official capacity, seeking money damages, is barred
by the Eleventh Amendment to the United States Constitution.”).
In this case, Plaintiffs seek to bring their due process
claim and their regulatory takings claim pursuant to 42 U.S.C.
§ 1983 (“Section 1983").

Section 1983 “establishes a cause of

action for the deprivation of any rights, privileges, or immunities
secured

by

the

Constitution

and

laws

of

the

United

States.”

Burroughs v. Petrone, 138 F. Supp. 3d 182, 197 (N.D.N.Y. 2015)
(internal quotation).

However, “it is settled law” that Section

1983 does not “operate to abrogate the State’s Eleventh Amendment
immunity.”

Gebman v. New York, No. 07-CV-1226 GLS-DRH, 2008 WL

2433693, at *4 (N.D.N.Y. June 12, 2008) (finding regulatory takings
claim brought pursuant to Section 1983 barred by the Eleventh
Amendment); see also Knight v. State of N. Y., 443 F.2d 415, 418
(2d Cir. 1971) (finding New York State immune from suit alleging
unlawful taking); McCluskey v. New York State Unified Court Sys.,
442 F. App'x 586, 588 (2d Cir. 2011) (due process claim against New
York’s Unified Court System was “barred by the Eleventh Amendment
since [the court system] is an arm of the State of New York”).
In this case, Plaintiffs’ complaint asserts Section 1983
claims against the State, NYDEC, and Commissioner Seggos “in his
7

A-8

official capacity.”

Docket No. 1 at ¶¶ 8-10.

All of these

Defendants are immune from suit under the Eleventh Amendment.

See

Pennhurst, 465 U.S. at 101-102 (Eleventh Amendment immunity applies
in suit against state officials where the state is the real party
in interest); see also Will v. Michigan Dep't of State Police, 491
U.S. 58, 89 (1989) (“an official-capacity action is in reality
always against the State”).

Moreover, Plaintiffs have not plead,

nor could they plausibly do so, that the State has waived its
Eleventh

Amendment

immunity

in

connection

with

their

claims.

Accordingly, Plaintiffs’ complaint cannot be maintained against
Defendants and must be dismissed.
B.

Plaintiffs’ Motions to Amend
1.

Legal Standard

Pursuant to Federal Rule of Civil Procedure 15(a), leave to
amend

shall

Nevertheless,

be

given

it

remains

freely
“within

“when
the

justice
sound

so

requires.”

discretion

district court to grant or deny leave to amend.”

of

the

Kim v. Kimm, 884

F.3d 98, 105 (2d Cir. 2018) (internal quotation omitted). In
particular, the Court may deny leave to amend “for good reason,
including futility, bad faith, undue delay, or undue prejudice to
the opposing party.”

McCarthy v. Dun & Bradstreet Corp., 482 F.3d

184, 200 (2d Cir. 2007).

A proposed amendment is futile where it

“fails to state a claim on which relief can be granted.”

Krys v.

Pigott, 749 F.3d 117, 134 (2d Cir. 2014). “The adequacy of a
proposed amended complaint to state a claim is to be judged by the
8

A-9

same

standards

as

those

governing

the

adequacy

of

a

filed

pleading.” Anderson News, L.L.C. v. Am. Media, Inc., 680 F.3d 162,
185 (2d Cir. 2012).
2.

Plaintiffs’ Proposed Amendments are Futile

In this case, Plaintiffs have filed two separate motions for
leave to amend.

Docket Nos. 11, 14.

Having reviewed the proposed

amended complaints submitted in connection with these motions, the
Court

finds

that

both

would

be

subject

to

dismissal

under

Rule 12(b)(6). Accordingly, the proposed amendments are futile, and
leave to amend is denied.
As discussed at length above, Plaintiffs’ claims are barred by
the Eleventh Amendment. The proposed amended complaints attempt to
circumvent the issue of Eleventh Amendment immunity in two ways.
First, Plaintiffs seek to assert claims against Commissioner Seggos
in his individual capacity.

Second, Plaintiffs have included a

request for injunctive relief in the later-filed of their proposed
amended complaints.

Neither of these additions to Plaintiffs’

allegations would permit Plaintiffs to proceed with their claims.
i.

Plaintiffs do not State a Claim Against
Commissioner Seggos in his Individual Capacity

Turning first to Plaintiffs’ attempt to sue Commissioner
Seggos in his individual capacity, “a plaintiff must establish a
given defendant’s personal involvement in the claimed violation in
order to hold that defendant liable in his individual capacity
under § 1983.”

Patterson v. Cty. of Oneida, N.Y., 375 F.3d 206,

9

A-10

229 (2d Cir. 2004).

In this case, the proposed amended complaints

contain no allegations of personal involvement by Commissioner
Seggos whatsoever.

To the contrary, Plaintiffs affirmatively

allege that it was the “former Commissioner” of NYSDEC who denied
them the ability “to commence the process or receive a permit to
conduct HVHF.”

Docket No. 14 at ¶ 13; see also Docket No. 11 at

¶ 12 (alleging that it was “former Commissioner Martens” who
instructed his staff to inform Plaintiffs that New York’s HVHF
prohibition applied to all New York property owners). Commissioner
Seggos is not mentioned in the proposed amended complaints beyond
being identified as a party, nor are any actions he allegedly took
with respect to Plaintiffs or the HVHF ban identified. Plaintiffs’
proposed amended complaints therefore fail to state a claim against
Commissioner Seggos in his individual capacity.
ii.

Plaintiffs have not Pled a Plausible Claim for
Prospective Relief

Plaintiffs’ inclusion of a request for injunctive relief in
one of their proposed amended complaints also does not render their
claims viable.

While it is true that “the Eleventh Amendment does

not bar suits alleging an ongoing violation of federal law and
seeking prospective (i.e., injunctive) relief, brought against
state officials in their official capacities,” Stevens v. New York,
691 F. Supp. 2d 392, 398 (S.D.N.Y. 2009), Plaintiffs have failed to
state a plausible basis on which this Court could grant the
prospective relief they seek.

10

A-11

The sole prospective relief sought by Plaintiffs is “[a]n
injunction
ability

to

imposed

against

commence

High

Defendants
Volume

banning

Hydro

Plaintiffs

Fracturing

on

the

their

property(s) [sic].” Docket No. 14 at 102. In order to grant the
broad, far-reaching prospective relief sought by Plaintiffs, the
Court would have to find that New York’s ban on HVHF was facially
unconstitutional, as opposed to constituting a taking for which
Plaintiffs are entitled only to monetary compensation. See Caruso
v. Zugibe, 646 F. App’x 101, 105 (2d Cir. 2016) (to validly seek
prospective relief, plaintiff must allege an ongoing violation of
federal law, as opposed to a past violation for which money damages
are owed).

However, Plaintiffs’ claim that the HVHF ban failed to

comport with the requirements of the Due Process Clause was already
fully

litigated

and

dismissed

in

New

York

State

court.

Accordingly, pursuant to 28 U.S.C. § 1738 (“Section 1738”) and the
doctrine of collateral estoppel, Plaintiffs may not now pursue such
a claim in this Court.
Section 1738 provides that the judicial proceedings of the
court of any state “shall have the same full faith and credit in
every court within the United States and its Territories and
Possessions as they have by law or usage in the courts of such
State, Territory or Possession from which they are taken.”

The

Supreme Court has explained that “Section 1738 requires federal
courts to give the same preclusive effect to state court judgments
that those judgments would be given in the courts of the State from
11

A-12

which the judgments emerged.”

Migra v. Warren City Sch. Dist. Bd.

of Educ., 465 U.S. 75, 81 (1984).

Accordingly, to the extent that

Plaintiffs would be prohibited from pursuing their due process
claim in New York’s courts, they are also prohibited from pursuing
it in this Court.
In this case, Mr. Morabito commenced a proceeding in New York
state court wherein he expressly alleged that New York’s HVHF ban
was unconstitutional, having been obtained without due process of
law.

The trial court determined that Mr. Morabito lacked standing

to pursue this claim, a decision that was subsequently upheld by
the Appellate Division.

The Court must determine as a threshold

matter what preclusive effect a New York court would give this
judgment.
Under New York law, “the doctrine of collateral estoppel, a
narrower

species

of

res

judicata,

precludes

a

party

from

relitigating in a subsequent action or proceeding an issue clearly
raised in a prior action or proceeding and decided against that
party or those in privity, whether or not the tribunals or causes
of action are the same.”
500 (1984).

Ryan v. New York Tel. Co., 62 N.Y.2d 494,

Collateral estoppel, also sometimes referred to as

issue preclusion, applies to rulings on the issue of standing.

See

Glass v. Del Duca, 151 A.D.3d 941, 942 (2d Dep’t 2017) (“The
doctrine of collateral estoppel bars relitigation of the issue of
the individual plaintiffs’ standing to bring the first two causes
of action” where the issue of standing was “was raised and decided
12

A-13

against [one plaintiff] on the merits in a separate action” and the
other plaintiffs were in privity); Martin v. Bixby, 40 A.D.3d 1277,
1278

(3d

Dep’t

2007)

(plaintiff’s

claims

resolution of standing issue against him);

precluded

by

prior

Fallek v. Becker,

Achiron & Isserlis, 246 A.D.2d 394, 395 (1st Dep’t 1998) (lower
court correctly found that plaintiff was collaterally estopped by
prior order holding that he lacked standing).

Moreover, “[c]ourts

in this Circuit routinely apply collateral estoppel to the issue of
standing.” CIT Bank N.A. v. Conroy, No. 14-CV-5862, 2017 WL
1745486, at *5 (E.D.N.Y. May 3, 2017) (internal quotation omitted)
(finding claims barred where state court had determined plaintiffs
lacked standing in prior proceeding).
Mr. Morabito had a full and fair opportunity to litigate his
standing to challenge the constitutionality of New York’s HVHF ban
in state court.

That issue was decided against him on the merits

by the trial court, which concluded that he had not demonstrated an
injury in fact distinct from that of the public at large, and that
he was in the same position as every other landowner in the state
of New York.
Appellate

That determination was upheld on appeal by the

Division.

See

Morabito,

149

A.D.3d

at

1316-17.

Accordingly, the doctrine of collateral estoppel applies, and
Mr. Morabito cannot relitigate that issue in this Court.

His

attempt to do so in the proposed amended complaints is therefore
futile.

13

A-14

Moreover, although Mrs. Morabito was not a party to the state
court action, she is in privity with Mr. Morabito.
of

collateral

estoppel,

privity

extends

to

In the context

“those

who

are

successors to a property interest, those who control an action
although not formal parties to it, those whose interests are
represented by a party to the action, and [those who are] coparties
to a prior action.”

Buechel v. Bain, 97 N.Y.2d 295, 304 (2001)

(finding parties in privity with former law partner because he was
co-signatory to disputed agreement).
Mr.

Morabito

share

the

same

Here, Mrs. Morabito and

property

interests,

represented by Mr. Morabito in the prior action.

which

were

See, e.g.,

Parolisi v. Slavin, 98 A.D.3d 488, 490 (2d Dep’t 2012) (finding
plaintiff in privity with prior owners of his property).

As such,

Mrs. Morabito is equally estopped from relitigating the issue of
standing before this Court.
Because Plaintiffs are barred by Section 1783 and the doctrine
of collateral estoppel from pursuing a claim that New York’s ban on
HVHF is unconstitutional based on the Due Process Clause, there is
no basis on which they can seek prospective relief.
their

inclusion

of

such

a

request

in

their

complaint does not render their claims viable.

Accordingly,

proposed

amended

Accordingly, the

Court denies Plaintiffs’ motions for leave to amend on the basis of
futility.

1

A-15

IV. CONCLUSION
For the reasons set forth above, Defendants’ motion to dismiss
this action (Docket No. 7) is granted.

Plaintiffs’ motions for

leave to amend (Docket Nos. 11 and 14) are denied.
the

Court

is

instructed

to

enter

judgement

in

The Clerk of
favor

Defendants and to close the case.
ALL OF THE ABOVE IS SO ORDERED.
S/Michael A. Telesca

HON. MICHAEL A. TELESCA
United States District Judge
Dated:

June 18, 2018
Rochester, New York

1

of

the

B-1

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NEW YORK

DAVID R. MORABITO and COLETTE M.G.
MORABITO,
Plaintiffs,

No. 6:17-cv-06853-MAT
DECISION AND ORDER

-vsTHE STATE OF NEW YORK, THE NEW
YORK STATE DEPARTMENT OF
ENVIRONMENTAL CONSERVATION and
BASIL SEGGOS, Commissioner of the
New York State Department of
Environmental Conservation,
Defendants.

I. INTRODUCTION
Plaintiffs David R. Morabito (“Mr. Morabito”) and Collette
M.G. Morabito (“Mrs. Morabito”) (collectively “Plaintiffs” or the
“Morabitos”) commenced this suit against Defendants the State of
New

York

(the

Environmental

“State”),

Conservation

the

New

York

(“NYSDEC”),

State

and

Department

NYSDEC

of

Commissioner

Basil Seggos (“Commissioner Seggos”) (collectively “Defendants”) on
December 12, 2017, alleging violations of the Fifth Amendment’s
Takings Clause and the Fourteenth Amendment’s Due Process Clause
related

to

fracturing

the
on

State’s
property

decision
owned

by

to

ban

high-volume

Plaintiffs.

hydraulic

Docket

No.

1.

Defendants subsequently moved to dismiss the complaint (Docket
No. 7), and Plaintiffs responded with two motions for leave to
amend (Docket Nos. 11 and 14).

1

B-2

On June 18, 2018, the Court entered a Decision and Order (the
“June 18th Decision and Order”) (Docket No. 26) granting Defendants’
motion to dismiss and denying Plaintiffs’ motions for leave to
amend.

In particular, the Court found that Defendants were immune

to Plaintiffs’ claims pursuant to the Eleventh Amendment.

The

Court also found that Plaintiffs’ proposed amended complaint failed
to allege a plausible claim against Commissioner Seggos in his
individual capacity, because they had not alleged that he was
personally involved in the alleged deprivation of rights. The Court
further found that Plaintiffs’ request to amend their complaint to
include

a

claim

for

prospective

relief

was

futile,

because

Plaintiffs had already litigated their due process claim in state
court, and were therefore barred from relitigating it in this Court
pursuant to 28 U.S.C. § 1738 and the doctrine of collateral
estoppel. Pursuant to the June 18th Decision and Order, judgment was
entered in favor of Defendants on June 19, 2018.

Docket No. 27

(the “Judgment”).
Currently

pending

before

the

Court

are

two

motions

by

Plaintiffs seeking vacatur of the June 18th Decision and Order and
the Judgment. Docket Nos. 28, 29. For the reasons set forth below,
the motions are denied.

2

B-3

II.

Discussion
A.

Legal Standard

As set forth above, Plaintiffs have filed two motions for
vacatur in this matter.
pursuant

to

Federal

The first (Docket No. 28) is brought
Rule

of

Civil

Procedure

60(b)(6)

(“Rule 60(b)”), which provides that “[o]n motion and just terms,
the court may relieve a party or its legal representative from a
final judgment, order, or proceeding for . . . any other reason
that justifies relief.”

The second (Docket No. 29) is brought

pursuant to both Rule 60(b) and Federal Rule of Civil Procedure
59(e) (“Rule 59(e)”), which permits a party to file a motion to
alter or amend a judgment within 28 days of entry.
A party seeking relief pursuant to Rule 60(b)(6) is required
“to show extraordinary circumstances justifying the reopening of a
final judgment.” Gonzalez v. Crosby, 545 U.S. 524, 535 (2005)
(internal quotation omitted); see also Intellectual Prop. Watch v.
United States Trade Representative, 205 F. Supp. 3d 334, 352
(S.D.N.Y. 2016) (“[Rule 60(b)(6) motions] are disfavored and should
only be granted upon a showing of extraordinary circumstances, or
extreme hardship.”) (internal quotation omitted).
Turning to Rule 59(e), “[t]here are four basic grounds upon
which a Rule 59(e) motion may be granted. First, the movant may
demonstrate that the motion is necessary to correct manifest errors
of law or fact upon which the judgment is based.... Second, the
3

B-4

motion may be granted so that the moving party may present newly
discovered or previously unavailable evidence. Third, the motion
will be granted if necessary to prevent manifest injustice....
Fourth, a Rule 59(e) motion may be justified by an intervening
change in controlling law.”
for

Amendment

or

11 Fed. Prac. & Proc. Civ., Grounds

Alteration

of

Judgment,

§

2810.1

(3d

ed.)

(footnotes omitted). “The standard for granting ... a motion [for
reconsideration] is strict, and reconsideration will generally be
denied unless the moving party can point to controlling decisions
or data that the court overlooked – matters, in other words, that
might reasonably be expected to alter the conclusion reached by the
court.” Shrader v. CSX Transp., 70 F.3d 255, 256 (2d Cir. 1995).
B.

Plaintiffs have not Shown that Vacatur is Warranted

Here, whether considered under the Rule 59(e) standard or the
Rule 60(b) standard, Plaintiffs have failed to demonstrate that
vacatur is warranted.

Plaintiffs argue that the June 18th Decision

and Order contained “numerous factual inaccuracies” that warrant
reconsideration.
“factual

Docket No. 29 at ¶ 3.

inaccuracies”

are

nothing

However, these so-called

more

than

a

rehashing

of

arguments that the Court has already rejected.
First, Plaintiffs contend that the Court erred in concluding
that

their

due

process

claim

had

been

“‘fully

litigated

and

dismissed in New York State Court’” (Id. (quoting Docket No. 26 at
11) because their state court claim was dismissed on standing

4

B-5
grounds.

Plaintiffs argument misapprehends the meaning of “fully

litigated” in this context. The Court is aware that the state
courts did not reach the merits of Plaintiffs’ due process claim,
and discussed at length in the June 18th Decision and Order the fact
that

the

standing.

state

court’s

dismissed

See Docket No. 26 at 12.

the

matter

due

to

lack

of

However, as the Court further

explained, “[c]ollateral estoppel, also sometimes referred to as
issue preclusion, applies to rulings on the issue of standing.”
Id.

Accordingly, the Court had to consider whether Plaintiffs had

“a ‘full and fair opportunity’ to litigate the standing issue” in
state court.” Lefkowitz v. McGraw-Hill Glob. Educ. Holdings, LLC,
23 F. Supp. 3d 344, 362 (S.D.N.Y. 2014).

The Court concluded that

Plaintiffs did have such an opportunity, and that, as such, the
issue could not be relitigated in front of this Court.

Plaintiffs

have provided no new evidence, overlooked case law, or any other
“extraordinary circumstance” that would change this conclusion.
Second,
determination

Plaintiffs
that

contend

Defendants

that

were

the

immune

Court
under

erred
the

in

its

Eleventh

Amendment, because Plaintiffs sought leave to assert claims against
Commissioner Seggos in his individual capacity.

The Court fully

considered this argument by Plaintiffs in the June 18th Decision and
Order.

As the Court explained therein, although Plaintiffs sought

leave to include an individual capacity claim against Commissioner
Seggos, they had made no factual allegations whatsoever related to

5

B-6

actions taken by Commissioner Seggos. “To the contrary, Plaintiffs
affirmatively allege that it was the ‘former Commissioner’ of
NYSDEC who denied them the ability ‘to commence the process or
receive a permit to conduct HVHF.’”
Docket No. 14 at ¶ 13)).

Docket No. 26 at 10 (quoting

As the Court explained, the lack of any

allegations of personal involvement by Commissioner Seggos was
fatal

to

an

individual

capacity

claim

against

him.

Again,

Plaintiff has failed to provide any new basis for the Court to
reconsider its prior conclusion and simply reiterates an argument
that this Court has already fully considered.
Finally, Plaintiffs attempt to relitigate their request to add
a claim for prospective injunctive relief.

The Court will not

repeat its analysis of this claim here, having thoroughly discussed
the matter in the June 18th Decision and Order. The Court notes
again that the June 18th Decision and Order fully acknowledged and
considered the fact that the state court proceedings were dismissed
on standing grounds, and nevertheless concluded that collateral
estoppel applied. Plaintiffs’ disagreement with that conclusion is
simply

not

a

basis

to

reopen

this

matter

or

to

disturb

the

Judgment. See United Airlines, Inc. v. Brien, 588 F.3d 158, 177
(2d

Cir.

2009)

(“The

agency’s

grounds

for

the

Rule

60(b)(6)

motion - which essentially boil down to a claim that the decision
was wrong - are not sufficiently extraordinary to justify reopening
a closed case....”).

6

B-7

III. Conclusion
For the reasons set forth above, Plaintiffs’ motions to vacate
th

the June 18 Decision and Order and the Judgment (Docket Nos. 2829) are
denied.
ALL OF THE ABOVE IS SO ORDERED.

s/Michael A. Telesca
MICHAEL A. TELESCA United
States District Judge
Dated:

August 6, 2018
Rochester, New York

6

18-2499
Morabito v. State of New York

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

AMENDED SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A SUMMARY
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS COURT=S LOCAL RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION ASUMMARY ORDER@). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 27th day of February, two
thousand twenty.
PRESENT:
RALPH K. WINTER,
JOHN M. WALKER, JR.,
SUSAN L. CARNEY,
Circuit Judges.

David R. Morabito and Colette M.G. Morabito,
Plaintiffs-Appellants,
v.

No. 18-2499

The State of New York, The State of New York
Department of Environmental Conservation,
and Basil Seggos, Acting Commissioner, New
York State Department of Environmental
Conservation,
Defendants-Appellees.

FOR PLAINTIFFS-APPELLANTS:

David R. Morabito, Colette
M.G. Morabito, pro se, East
Rochester, NY.
C-1
6

FOR DEFENDANTS-APPELLEES:

Claiborne E. Walthall,
Assistant Attorney General,
Susan L. Taylor, Assistant
Attorney General, Frederick
A. Brodie, Assistant
Solicitor General, Jeffrey
W. Lang, Deputy Solicitor
General, Barbara D.
Underwood, Solicitor
General, for Letitia James,
Attorney General of the
State of NY, Albany, NY.
Appeal from a judgment of the United States District Court for the Western District

of New York (Telesca, J.).

UPON DUE CONSIDERATION, IT IS HEREBY ORDERED,
ADJUDGED, AND
DECREED that the judgment of the district court dated June 19, 2018, and order dated
August 7, 2018, are AFFIRMED.
Appellants David Morabito (an attorney) and Colette Morabito, proceeding pro se,1
appeal the district court’s judgment dismissing their 42 U.S.C. § 1983 complaint and postjudgment order denying their motion to vacate the judgment. The Morabitos sued the
State of New York, the New York State Department of Environmental Conservation
(“DEC”), and Basil Seggos in his official capacity (as Commissioner of the DEC),
claiming that New York’s regulation banning high-volume hydraulic fracturing (“HVHF”)
violated the Takings and Due Process clauses of the Constitution. After defendants
moved to dismiss the complaint as barred by Eleventh Amendment immunity, the
Morabitos moved to amend. Their proposed amended complaint attempted to
circumvent Eleventh Amendment immunity by suing Seggos in his individual (rather
1

Although it is well-settled that “a court is ordinarily obligated to afford special solicitude
to pro se litigants” based on “[t]he rationale . . . that a pro se litigant generally lacks both
legal training and experience,” “a lawyer representing himself ordinarily receives no
such solicitude at all.” Tracy v. Freshwater, 623 F.3d 90, 101-02 (2d Cir. 2010).
6
Because David Morabito is a licensed attorney,
the Morabitos are not entitled to the
“special
solicitude”
afforded
to
the
typical
pro
se
litigant.
C-2

than official) capacity and by seeking injunctive relief under § 1983, in addition to
damages. We assume the parties’ familiarity with the underlying facts, the procedural
history of the case, and the issues on appeal, to which we refer only as necessary to
explain our decision to affirm.
I.

Dismissal
We review de novo a judgment of dismissal entered under either Federal Rules

of Civil Procedure 12(b)(1) or 12(b)(6).2 See Washington v. Barr, 925 F.3d 109, 113 (2d
Cir. 2019). In considering whether a governmental entity is entitled to Eleventh
Amendment immunity, we review a district court’s factual findings for clear error and
its legal conclusions de novo. See Leitner v. Westchester Cmty. Coll., 779 F.3d 130,
134 (2d Cir. 2015).
“The Eleventh Amendment generally bars suits in federal court by private
individuals against non-consenting states.” Id. The Eleventh Amendment also bars
damages claims brought against state agencies and individual state defendants in their
official capacities. See Kentucky v. Graham, 473 U.S. 159, 169 (1985) (state officials in
their official capacities); Gorton v. Gettel, 554 F.3d 60, 62 (2d Cir. 2009) (per curiam)
(state agencies). It is well settled that § 1983 does not override Eleventh Amendment
immunity. Dube v. State Univ. of N.Y., 900 F.2d 587, 594 (2d Cir. 1990). The district
court thus correctly held that the Eleventh Amendment barred the Morabitos’ § 1983
suit against New York (a state), the DEC (a state agency), and Seggos (a state official)
in his official capacity. Although, as discussed below, the Morabitos also challenge th
2

Although the district court characterized its dismissal as falling under Rule 12(b)(6), it is
more appropriately characterized as a dismissal under Rule 12(b)(1), as it was
based on sovereign immunity. See Dube v. State Univ. of N.Y., 900 F.2d 587, 594 (2d
Cir. 1990) (explaining the federal courts “lack jurisdiction” over § 1983 claims that are
barred by Eleventh Amendment immunity (internal quotation marks omitted)).
C-3

district court’s holdings dismissing their claims against Seggos in his individual capacity
and their request for injunctive relief, they do not challenge the district court’s core
holding barring their other claims under the Eleventh Amendment.
II.

Proposed Amendments
We generally review a district court’s denial of leave to amend a complaint for

abuse of discretion. See Grochowski v. Phx. Constr., 318 F.3d 80, 86 (2d Cir. 2003). If
a district court denies leave to amend because the proposed amended complaint does
not state a claim upon which relief can be granted, however, our review is de novo.
Anderson News, L.L.C. v. Am. Media, Inc., 680 F.3d 162, 185–86 (2d Cir. 2012). “While
generally leave to amend should be freely granted, it may be denied when there is a
good reason to do so, such as futility, bad faith, or undue delay.” Kropelnicki v. Siegel,
290 F.3d 118, 130 (2d Cir. 2002) (internal citation omitted). The district court correctly
held that the Morabitos’ motion to add claims against Seggos in his individual
capacity and to seek injunctive relief were attempts to circumvent Eleventh Amendment
immunity and therefore that amendment was futile.
First, the district court correctly held that the Morabitos failed to state a claim
against Seggos in his individual capacity under § 1983. “It is well settled that, in order
to establish a defendant’s individual liability in a suit brought under § 1983, a plaintiff
must show, inter alia, the defendant’s personal involvement in the alleged constitutional
deprivation.” Grullon v. City of New Haven, 720 F.3d 133, 138 (2d Cir. 2013). As the
district court observed, the Morabitos failed to allege any personal involvement of
Seggos in their alleged constitutional deprivation. They argue, however, that Seggos is
personally involved in the deprivation because, as the present Commissioner, he is the
only person who could modify or abolish the regulation. Although that
C-4

argument may be sufficient to sustain a claim for prospective relief (theirs fails for a
different reason, discussed below), it is insufficient to sustain a § 1983 damages claim
for past alleged constitutional deprivations that occurred on the watch of a different
official. The Morabitos did not make any allegations that Seggos had any personal
involvement in the creation or enforcement of the operative regulation. Cf. Farrell v. Burke,
449 F.3d 470, 484 (2d Cir. 2006) (holding that, where a prior official imposed an
allegedly unconstitutional special condition of parole, an allegation that another official
not only continued that condition but actively enforced it by arresting the plaintiff was
sufficient to show personal involvement). Nor—to all appearances— could they, since he
assumed the commissioner’s position only after the regulation was adopted.
Second, we see no error in the district court’s ruling that the Morabitos’ motion to
add a request for injunctive relief (as opposed to damages under § 1983) was only a
futile attempt to avoid the Eleventh Amendment bar. If a complaint “alleges an ongoing
violation of federal law and seeks relief properly characterized as prospective,” the
Eleventh Amendment does not bar the proceeding against a state. See Verizon Md. Inc.
v. Pub. Serv. Comm’n of Md., 535 U.S. 635, 645 (2002); see also In re Deposit Ins.
Agency, 482 F.3d 612, 617 (2d Cir. 2007) (“[A] plaintiff may sue a state official acting in
his official capacity—notwithstanding the Eleventh Amendment—for

prospective

injunctive relief from violations of federal law.” (internal quotation marks omitted)). But as
the district court ruled, the Morabitos’ claim for injunctive relief was precluded by collateral
estoppel. Under the Full Faith and Credit Act, 28 U.S.C. § 1738, a federal court must
abide by New York state court judgments, using New York case law to determine
the effect of those judgments. See Hoblock v. Albany Cty. Bd. of Elections, 422 F.3d
77, 93 (2d Cir. 2005). “The doctrine of collateral estoppel precludes a party from
relitigating an issue which has previously

C-5

been decided against him in a proceeding in which he had a fair opportunity to fully
litigate the point.” Kaufman v. Eli Lilly & Co., 65 N.Y.2d 449, 455 (1985) (internal
quotation marks and citations omitted). Collateral estoppel applies when “the identical
issue necessarily . . . [was] decided in the prior action and [is] decisive of the present
action, and . . . the party to be precluded from relitigating the issue . . . had a full and
fair opportunity to contest the prior determination.” Id.; see also Vargas v. City of New
York, 377 F.3d 200, 205–06 (2d Cir. 2004).
In an Article 78 proceeding that he pursued in May 2015 in state court, David
Morabito urged that the state’s HVHF ban was unconstitutional. This is the same
argument underlying his proposed request for injunctive relief in the present action.3 The
New York courts held that David Morabito lacked standing to challenge the
constitutionality of the regulation because he did not demonstrate his own actual or
imminent injury-in-fact. Matter of Morabito v. Martens, Dkt. No. 01-15-ST6838 (N.Y. Sup.
Ct. 2016), aff’d, 149 A.D.3d 1316, 1316–17 (N.Y. App. Div. 3d Dep’t
2017), leave to appeal denied, 29 N.Y.3d 916 (2017). The standing issue was fully
and fairly litigated in the state courts and was necessary to the courts’ decisions.
Indeed, it was the sole holding of those courts. See Morabito, 149 A.D.3d at 1317.
Further, the Second Circuit has previously applied collateral estoppel to preclude
parties from re-litigating issues of standing that were already decided in New York
state court. See Mrazek v. Suffolk Cty. Bd. of Elections, 630 F.2d 890, 896 n.10 (2d
Cir. 1980) (holding that, where the New York courts had decided the issue of standing,
that decision was binding on the federal courts). Thus, the district court owed full

3

As the district court found, Colette Morabito is in privity with her husband David
Morabito for the purpose of collateral estoppel, and is therefore bound by our collateral
estoppel ruling against him. On appeal, the Morabitos do not challenge that finding.
C-6

faith and credit to the state courts’ standing holding and correctly applied collateral
estoppel to bar the Morabitos’ renewed claim for injunctive relief.
The Morabitos argue that collateral estoppel cannot apply in the federal action
because the state courts never decided the merits of their constitutional claims. This
argument falls short. It appears to confuse the doctrine of collateral estoppel (issue
preclusion) with that of res judicata (claim preclusion); collateral estoppel asks only if
the issue (here, standing) was necessarily decided and does not require the prior court
to have determined the merits of the claims. Compare Kaufman, 65 N.Y.2d at 455
(“[C]ollateral estoppel precludes a party from relitigating an issue which has
previously been decided against him[.]” (emphasis added) (internal quotation marks
omitted)), with Matter of Josey v. Goord, 9 N.Y.3d 386, 389 (2007) (“The doctrine of res
judicata precludes a party from litigating a claim where a judgment on the merits exists
from a prior action between the same parties involving the same subject matter.”
(emphasis added) (internal quotation marks and citation omitted)). Thus, the district
court was bound to apply the state court ruling that the Morabitos did not have standing
to seek injunctive relief.
The Morabitos also argue that the state courts’ standing determination was
incorrect because it was based on their failure to apply for an HVHF permit for use on
their property. This argument, however, misconstrues the state court holdings. Those
courts ruled that the Morabitos lacked standing because they had not demonstrated an
injury-in-fact for several reasons. These included but were not limited to their failure to
seek a permit. Morabito, 149 A.D.3d at 1317 (“[P]etitioner had not applied for a permit
nor offered any proof that he met any of the requirements to obtain a permit. He offered
no proof of any plans to move forward with the process and conceded that any
plans would necessarily involve commitments
by oil and gas exploration C-7
C-7

companies, of which he had none.”). In any event, the Full Faith and Credit Clause
precludes this Court from reexamining the state courts’ standing determination, and the
district court did not err in concluding that it must give the decision binding effect. See
Hoblock, 422 F.3d at 93.
Finally, the Morabitos argue that, because they were required—under Williamson
County Regional Planning Commission v. Hamilton Bank of Johnson City, 473 U.S. 172,
194–96 (1985)— to first exhaust remedies in state court before bringing a Takings Clause
claim in federal court, the federal court should not apply collateral estoppel to state
court rulings on their claims. We are not persuaded. The Morabitos are correct that the
Supreme Court recently overturned the portion of its Williamson decision that required
exhaustion of remedies in state court. Knick v. Twp. of Scott, 139 S. Ct. 2162, 2177
(2019) (holding, in contrast to Williamson, that a plaintiff asserting a Takings Clause claim
need not seek relief in state courts before bringing a claim in federal court). That
argument is inapposite, however, because the district court did not dismiss their claims
for failure to exhaust state remedies (as in Knick); ultimately, whatever the reason they
did so, the fact is that the Morabitos brought their claims in state court, where they lost.
The district court was required by federal law to apply collateral estoppel to issues
decided in those proceedings.
III.

Rule 59 and 60 Motions

Finally, the district court did not abuse its discretion in denying the Morabitos’ motion under
Federal Rules of Civil Procedure 59 and 60 for vacatur of the judgment. See Schwartz v. Liberty
Mut. Ins. Co., 539 F.3d 135, 150 (2d Cir. 2008) (Rule 59(e) motion); Transaero, Inc. v. La Fuerza
Aerea Boliviana, 162 F.3d 724, 729 (2d Cir. 1998) (Rule 60(b) motion). “[R]econsideration [of a
judgment] will generally be denied unless the moving party can point to controlling decisions or
data that the court overlooked. . . .” Shrader v. CSX Transp., Inc., 70

F.3d 255, 257 (2d Cir. 1995). Reconsideration is not warranted where the party seeks “solely to
relitigate . . . issue[s] already decided,” id., and reconsideration motions are “a mechanism for
extraordinary

judicial

relief

invoked

only

if C-8
the

moving

party

demonstrates

exceptional

circumstances,” Ruotolo v. City of New York, 514 F.3d 184, 191 (2d Cir. 2008) (internal quotation
marks omitted). The Morabitos adduced no new data and pointed to no intervening decisions that the
court overlooked in rendering its first decision. Therefore, we affirm the district court’s order for
substantially the same reasons as were stated by the district court in its thorough Order of August
7, 2018.
We have considered all of the Morabitos’ remaining arguments and conclude that they are
without merit. Accordingly, we AFFIRM the judgment and post-judgment order of the district court.
FOR THE COURT:
Catherine O=Hagan Wolfe, Clerk of Court

C-9

UNITED STATES SUPREME COURT

DAVID R. MORABITO and COLETTE M.G MORABITO,
Petitioners,
v.
THE STATE OF NEW YORK, THE NEW YORK STATE
DEPARTMENT OF ENVIRONMENTAL CONSERVATION
and BASIL SEGGOS, COMMISSIONER OF THE NEW
YORK STATE DEPARTMENT OF ENVIRONMENTAL
CONSERVATION
Respondents

CERTIFICATE OF SERVICE
I certify that on the 19th Day of May, 2020, I served three (3) copies of
the Petition for Writ of Certiorari upon: Barbara D. Underwood, Esq.,
Solicitor Generals Office at New York State Attorney Generals Office,
The Capitol, Albany, NY 12224, (518-776-2380) by depositing a true
copy of the same enclosed in a post-paid, properly addressed
wrapper, in a Post Office depository under the exclusive care and
custody of the United States Post Office Department within the State
of New York.

I declare under penalty of perjury that the foregoing is true and
correct.

_/s/ David R. Morabito_
David R. Morabito, Esq.

